<html>
<title> - GLOBAL SECURITY ASSESSMENT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-67]
 
                       GLOBAL SECURITY ASSESSMENT

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JULY 11, 2007

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13



                     U.S. GOVERNMENT PRINTING OFFICE
38-836 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
MARTY MEEHAN, Massachusetts          ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               HOWARD P. ``BUCK'' McKEON, 
VIC SNYDER, Arkansas                     California
ADAM SMITH, Washington               MAC THORNBERRY, Texas
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
MIKE McINTYRE, North Carolina        ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        KEN CALVERT, California
ROBERT A. BRADY, Pennsylvania        JO ANN DAVIS, Virginia
ROBERT ANDREWS, New Jersey           W. TODD AKIN, Missouri
SUSAN A. DAVIS, California           J. RANDY FORBES, Virginia
JAMES R. LANGEVIN, Rhode Island      JEFF MILLER, Florida
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                FRANK A. LoBIONDO, New Jersey
JIM MARSHALL, Georgia                TOM COLE, Oklahoma
MADELEINE Z. BORDALLO, Guam          ROB BISHOP, Utah
MARK UDALL, Colorado                 MICHAEL TURNER, Ohio
DAN BOREN, Oklahoma                  JOHN KLINE, Minnesota
BRAD ELLSWORTH, Indiana              CANDICE S. MILLER, Michigan
NANCY BOYDA, Kansas                  PHIL GINGREY, Georgia
PATRICK MURPHY, Pennsylvania         MIKE ROGERS, Alabama
HANK JOHNSON, Georgia                TRENT FRANKS, Arizona
CAROL SHEA-PORTER, New Hampshire     THELMA DRAKE, Virginia
JOE COURTNEY, Connecticut            CATHY McMORRIS RODGERS, Washington
DAVID LOEBSACK, Iowa                 MICHAEL CONAWAY, Texas
KIRSTEN GILLIBRAND, New York         GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania
GABRIELLE GIFFORDS, Arizona
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                 Mark Lewis, Professional Staff Member
              Aaileen Alexander, Professional Staff Member
                   Margee Meckstroth, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Wednesday, July 11, 2007, Global Security Assessment.............     1

Appendix:

Wednesday, July 11, 2007.........................................    41
                              ----------                              

                        WEDNESDAY, JULY 11, 2007
                       GLOBAL SECURITY ASSESSMENT
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Fingar, Dr. Thomas, Deputy Director of National Intelligence for 
  Analysis, Office of the Director of National Intelligence......     3

                                APPENDIX

Prepared Statements:

    Fingar, Dr. Thomas...........................................    45

Documents Submitted for the Record:

    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. Loebsack.................................................    73
    Mr. Smith....................................................    71
                       GLOBAL SECURITY ASSESSMENT

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Wednesday, July 11, 2007.
    The committee met, pursuant to call, at 10:07 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Ladies and gentlemen, welcome to the House 
Armed Services Committee hearing on global security 
environment.
    Before us today are: Dr. Thomas Fingar, Deputy Director of 
National Intelligence for Analysis from the Office of Director 
of National Intelligence; Mr. Robert Cardillo, Deputy Director 
for Analysis from the DIA, Defense Intelligence Agency; and Mr. 
John Kringen, Director for Intelligence from the Central 
Intelligence Agency.
    I certainly want to thank you, and I understand that you 
will have staff behind you in case we have additional 
questions.
    I expect that today's hearing will be a very important one, 
as it is the first one in a series of what there is out there 
that we need to know to perform our constitutional duties.
    The oversight plan for the 110th Congress reads that ``the 
committee will conduct all its oversight activities within the 
context of a comprehensive approach to understanding the 
strategic risks facing the United States. In so doing, the 
committee will seek to determine what level of strategic risk 
is acceptable, what factors increase that risk and what factors 
reduce it.''
    We must keep that test in mind. A large measure of 
considering and evaluating the strategic risk is understanding 
what potential security challenges face our country. With that 
in mind, I call for this hearing to orient our members to the 
range of potential security challenges our country faces in the 
immediate and mid-term future.
    In a sense, the hearing is the first of a series. As I 
mentioned, very shortly, our committee will resume its 
oversight activities involving the Middle East as a region and 
then the conflicts in Iraq and Afghanistan. Today's hearing 
will provide us with the broad strategic context which we can 
use to help us to understand how those wars, especially Iraq, 
fit into the overall security environment facing our country. 
We could very easily call this hearing Strategic Risk 101.
    We must consider the ongoing wars, both in terms of their 
importance to our national security interests and the amount of 
risk incurred through the continued expenditure of resources 
for their prosecution, is the risk-reward equation in balance, 
and it is my hope that members will use today to inform their 
judgment to consider that question.
    It is important to remember that the international security 
situation is fluid. We must hedge against strategic surprise 
and at the same time work to identify trends that could have 
implications to our national security down the road.
    Members of this committee have heard me say that since I 
have been in Congress--I have been blessed to be here 30-plus 
years--during that time, we have had 12 conflicts in which our 
country has been involved militarily, 4 of which were major, 
and most of them were not thought out ahead of time and came as 
a surprise.
    So why is it important? It is our constitutional duty to 
raise and support the armies, provide and maintain the Navy, 
and we have responsibility to do just that for the foreseen and 
unforeseen.
    So, ladies and gentlemen, let me welcome you, thank you for 
coming over. It is extremely important that you give us your 
best judgment on these very important issues today.
    My friend, my colleague, Ranking Member Duncan Hunter.

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERFVICES

    Mr. Hunter. Thank you, Mr. Chairman, and thanks for holding 
this very important hearing, and I want to join with you in 
welcoming our guests.
    During the 2006 Committee Defense Review, an effort 
intended to complement the Pentagon's Quadrennial Defense 
Review, this committee defined a threat as intent plus 
capability, and during our review, we realized that the 
international security environment that the U.S. forces operate 
in today includes a broad and diverse spectrum of threats, 
changing the strategic security equation that we use to 
understand strategic risk and determine necessary capabilities.
    Today's strategic security equation continues to include 
those potential threats generated by hostile nation states, and 
I would just go over a couple of them.
    China: The Pentagon's 2006 QDR noted that China is at a 
strategic crossroads with ``the greatest potential to compete 
militarily with the United States. China's rapid economic 
growth, double-digit defense spending, investments in military 
modernization with a focus on power projection and its 
strategic forces contribute to increasing security competition 
in Asia.''
    Iran: ``Iran continues to take steps that counter U.S. 
influences in the region by supporting international terrorism 
and expanding its nuclear program and ballistic arsenal.''
    And we have seen the recent steps that they have undertaken 
in the last several weeks, Mr. Chairman, with respect to the 
excavations that are taking place near their centrifuge sites 
in Iran. It is these actions that disrupt regional stability 
and require the United States to ensure it is postured to deter 
and defeat any aggression against American interests.
    Venezuela: As a regional neighbor of the United States, 
Venezuela is increasingly threatening stability in the Western 
Hemisphere. The country's leadership is determined to move the 
country away from democracy and toward socialism, maintains 
close relations with Cuba and Iran, and continues to decrease 
its cooperation in antidrug and antiterrorism efforts.
    And, again, on the front pages of the newspapers these last 
several weeks have been stories about the new arms deal that 
would bring a new array of fairly sophisticated military 
systems to Venezuela.
    Today's security equation is not a simplistic one that is 
limited solely to meeting the threats posed by hostile nation 
states, but also includes elements from non-state actors, such 
as violent extremist groups like al Qaeda. The threat from al 
Qaeda and related groups is one of the most daunting challenges 
to U.S. security we face as they exploit conditions created by 
regional instabilities in such places as Iraq, Africa, the 
Pacific, and the Horn of Africa to provide safe haven and 
espouse a corruptive view of Islam to encourage violence 
against the United States and other nations.
    This problem of having to face both state and non-state 
actors becomes even more complex as we are seeking more and 
more linkages between these threats. A recent cyberattack on 
Estonia raises the specter of states enlisting non-state actors 
to act as a proxy. The attacks against Estonia were not 
military in nature, but attacked communications, economic 
systems, and other infrastructure which raises new concerns 
about the scope of potential hostile actions we might face.
    So these security challenges are very complex. They are 
diverse. They are evolving. They require this committee's 
understanding of a multifaceted strategic security equation and 
a continued effort to ensure that our forces have the necessary 
resources and capabilities to perform their missions honorably 
and reduce the risks to the security of the American people.
    So, Mr. Chairman, once again, thanks for holding this very 
timely hearing. I look forward to the discussion.
    The Chairman. Well, I thank the gentleman from California.
    As I understand it, Dr. Fingar, you have a prepared 
statement and will deliver your comments now. As I understand 
it, Mr. Kringen and Mr. Cardillo will be here to answer 
questions. Am I correct on that?
    Dr. Fingar. Yes, you are, Mr. Chairman.
    The Chairman. Then, Doctor, please proceed and then we will 
go to the questions. Thank you.

  STATEMENT OF DR. THOMAS FINGAR, DEPUTY DIRECTOR OF NATIONAL 
 INTELLIGENCE FOR ANALYSIS, OFFICE OF THE DIRECTOR OF NATIONAL 
                          INTELLIGENCE

    Dr. Fingar. Thank you.
    Chairman Skelton, Ranking Member Hunter, members of the 
committee, thank you for this opportunity to present our 
assessment of threats to our nation.
    Mr. Chairman, thank you for introducing my colleagues, Dr. 
Kringen and Mr. Cardillo, who will be here to help with 
questions. Indeed, in order to maximize time for you to ask the 
questions of greatest interest to you, I will give a very 
abbreviated opening statement.
    Mr. Chairman, America confronts a greater diversity of 
threats and challenges than ever before. Globalization is the 
defining characteristic of our age and has more positive than 
negative consequences, but globalization facilitates terrorist 
activity, increases the danger of Weapons of Mass Destruction 
(WMD) proliferation and contributes to regional instability and 
reconfiguration of power and influence, especially through 
competition for energy.
    Many nations are unable to provide good governance and 
sustain the rule of law within their borders. This enables 
hostile states and non-state actors to threaten fundamental 
building blocks of international order, creating failed states, 
proxy states, terrorist safe havens, and ungoverned regions 
that endanger the international community and its citizens.
    It also threatens our national security. Terrorist threats 
to the homeland and to our friends and allies post the most 
serious danger to our nation and the biggest challenge for the 
intelligence community.
    Al Qaeda is the terrorist organization posing the greatest 
threat to U.S. interests, including the homeland. We have 
captured or killed numerous senior al Qaeda operatives, but the 
organization is resilient and continues to plot attacks against 
high-profile targets with the objective of inflicting mass 
casualties. al Qaeda maintains active connections between its 
leaders hiding in the Afghanistan-Pakistan border region and 
affiliates throughout the Middle East, North and East Africa, 
and Europe.
    The ongoing efforts of nation states and terrorists to 
develop and/or acquire dangerous weapons and delivery systems 
constitute the second major threat to the safety of our nation, 
our deployed troops and our friends. Iran and North Korea pose 
the most serious proliferation challenges.
    Iran continues to pursue uranium enrichment and has shown 
more interest in protracting negotiations and working to delay 
and diminish the impact of United Nations Security Council 
sanctions than in reaching an acceptable diplomatic solution. 
We assess that Tehran is determined to develop nuclear weapons, 
despite its international obligations and international 
pressure.
    Iran's influence is rising in ways that go beyond the 
potential threat posed by its nuclear program. The fall of the 
Taliban and Saddam increased oil revenues. Hamas control of 
Gaza and Hezbollah's perceived success last summer in fighting 
against Israel embolden Iran and unsettle our Arab allies.
    North Korea has flight-tested missiles and a nuclear 
device. We are concerned by the prospect of further 
proliferation because Pyongyang has a long history of selling 
ballistic missiles, including to several Middle Eastern 
countries. The agreement reached through the six-party talks 
last February obligates the Democratic People's Republic of 
Korea (DPRK) to declare all its nuclear programs and disable 
its nuclear facilities. We will look closely for signs of 
compliance.
    In Iraq, coalition and Iraqi forces seek to reduce 
violence, combat terrorism, and create an environment conducive 
to national reconciliation. The government of Prime Minister 
Maliki is making halting efforts to bridge divisions and 
restore commitment to a unified country. Iraqi security forces, 
especially the Iraqi army, have become more numerous and more 
capable. Despite these and other positive developments, 
however, communal violence and deep suspicion among Shias, 
Sunnis, and Kurds continue to polarize politics.
    The intelligence community stated in the January 2007 
National Intelligence Estimate on Iraq that security and 
political trends were moving in a negative direction and that, 
even if efforts to reduce violence were successful, political 
progress would take time. It is too early to assess whether the 
strategy currently being implemented will allow lasting 
improvements in this situation.
    Afghanistan's leaders continue to face a resurgent Taliban 
threat and formidable challenges to effective governance. The 
country has a chronic shortage of resources and qualified and 
motivated government officials, and pervasive drug cultivation 
contributes to endemic corruption at all levels of government. 
Diminishing the safe haven that the Taliban and other 
extremists have found in Pakistan is a necessary but 
insufficient condition for ending the insurgency in 
Afghanistan.
    Mr. Chairman, cognizant of your desire to allow as much 
time as possible for questions and discussions, I will further 
compress the points made in my statement for the record with 
the goal of illustrating the scope, complexity, and 
implications of other threats and challenges facing our 
country. Each of the points I will convey in telegraphic form 
are discussed at greater length in the written statement.
    Very briefly, the rise of China and economic prosperity 
more generally, except for North Korea, are challenging 
Northeast Asia in unprecedented ways, but Asia still lacks 
mature integrating security mechanisms, except for bilateral 
security treaties with the United States.
    Beijing continues to emphasize economic development and 
friendly relations with its neighbors, but it also continues 
its rapid military modernization program involving several 
weapons systems designed to challenge the United States' 
capability.
    As Russia moves toward a Presidential election, succession 
maneuvering has intensified. The Kremlin has increased efforts 
to stifle political opposition and widen the state control over 
strategic sectors of the economy. High energy prices continue 
to fuel economic recovery and fan aspirations to become an 
energy superpower.
    The situation in the Palestinian territories is precarious, 
with forces loyal to Hamas and Fatah poised to renew fighting, 
and prospects for negotiations with Israel are dimmed by the 
existence of competing Palestinian governments. Large-scale 
killing and organized massacres in Darfur are less frequent 
than they were a few years ago, but violence continues and the 
numbers of refugees and displaced persons continue to grow.
    Democracy is at risk in Venezuela where President Chavez 
has become one of the most stridently anti-American leaders in 
the world. The strong showing of Presidential candidates with 
leftist or populist views in several other Latin American 
countries speak to the growing impatience of national 
electorates with corruption, real and perceived, and the 
failure of incumbent governments to improve the living 
standards of large elements of the population.
    Somalia remains in turmoil. Lebanon remains at risk. The 
list goes on.
    Mr. Chairman, with your permission, I will conclude my oral 
statement with a request that my written statement be made a 
part of the record of today's proceedings and a pledge to 
answer questions from the committee as fully and frankly as 
possible in an open session.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Fingar can be found in the 
Appendix on page 45.]
    The Chairman. Thank you.
    Without objection.
    Let me ask one question before I call on Mr. Hunter. 
Looking back to an era of relative worldwide calm--and I doubt 
if there is such an era--Doctor, correct me if I am wrong--
somewhere between 1953, the end of the Korean War, and the 
early 1960's, which showed the breakup of the various African 
colonies, if that is fairly true, how much more dangerous is 
this world in which we live now than it was during that era?
    Dr. Fingar. Three points, I think, will frame the answer.
    The first is that the period, of course, was a part of the 
Cold War era where the existential threat to our nation from 
Soviet nuclear weapons and the intensity of the two-camp 
struggle, the ideological struggle, the incredible arms race, 
militarization, competition for allies around the world had a 
very, very serious threat to our existence, our way of life 
and, indeed, the safety of every American.
    A difference--second point--is that because it was a 
largely bipolar world in which the United States and the Soviet 
Union exercised a degree of influence or control over most 
other nations, even the newly emerging nations that you 
mentioned, Mr. Chairman, as a result of decolonization, that 
lent an element of stability to the high-risk situation.
    Today, the frail, failing governments in many parts of the 
world, the absence of an overarching threat to galvanize 
attitudes and populations in increasingly democratic societies 
around the world lend a degree of unpredictability that we did 
not have in the earlier period.
    The third difference is the emergence of asymmetric 
challenges. At one end of the spectrum, the prospect of nuclear 
proliferation, use of biological toxins by nation states, by 
weak nations or by non-state actors. The other end of the 
spectrum, there is the poor man's nuclear deterrent of 
terrorism that, as nations and non-state actors recognize that 
their ability to challenge the United States militarily has 
diminished in many cases to zero, the temptations to utilize 
the asymmetric tactics of terrorism increase, and in the 
ungoverned, poorly governed areas that result in part from the 
playing forward of history of decolonization and the breakup of 
the two blocs, there are an increasing number of areas in the 
globe that are conducive to being safe havens for terrorists 
looking for a foothold to prepare for actions against us.
    The Chairman. I thank the gentleman.
    Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    Gentlemen, one aspect of the conflict with the Soviet Union 
was the development and the maintenance of Coordinating 
Committee for Multilateral Export Controls (COCOM), the 
technology transfer regime that was a multilateral regime that 
worked. While it had a few holes in it and there were obviously 
many attempts by members of the Soviet bloc to get around it, 
it kept a lot of important military technology from flowing to 
the Soviet Union and Warsaw Pact nations.
    COCOM dissolved with the Soviet Union, and today it is 
basically every man for himself, with nations self-imposing 
some disciplines in some cases, in other cases having goals and 
standards that are very general and somewhat vague with respect 
to transfers of technology to places like China. We are trying 
to maintain the European arms embargo with respect to China, 
but lots of stuff is getting through.
    My question is do you think that we need a new COCOM, if 
you will, a new discipline that we would negotiate with our 
allies to prevent the transfer of technology to nation states 
that have been helping or might be helping terrorists, 
understanding we have certain lists and disciplines that are 
basically limited to American entities that to some degree keep 
critical military technology from getting into the wrong hands?
    But my question is do you think that we need a new regime 
with respect to transfer of technology to China and/or other 
nation states?
    Dr. Fingar. My starting point, Mr. Chairman, is we have 
some reasonably well-functioning international regimes, the 
Nuclear Suppliers Group, the Australia Group and so forth, that 
are effective and need to be strengthened.
    Reviving COCOM or a COCOM for the 21st century, I think, 
though it may be desirable in certain respects, globalization 
makes it less than practical, in my view. I say that as 
somebody who was on the advisory panel for the Office of 
Technology Assessment when Congress rewrote the Export 
Administration Act in 1978-1979, that the old model that made 
COCOM effective, that had a relatively small number of 
producers, generators of technologies, many of which were 
closely linked to the military and could be controlled because 
the military was the primary customer has been replaced by 
global manufacturing just in time, many, many centers of 
technological and engineering excellence, most technology being 
commoditized dual use, the larger markets being outside of 
military procurement in our own country and elsewhere.
    I think any type of a control regime--and I do believe 
control regimes are appropriate--need to be very tightly 
focused on specific technologies with very direct military 
applications that would endanger our weapons systems, for 
example. Broader technology constraints, I think, would be very 
difficult to enforce, but I invite my colleagues to comment.
    Mr. Kringen. We would agree.
    Mr. Hunter. With respect to having a tight array of 
controlled technologies, would you agree that we need to have 
another COCOM system? You know, I am thinking of when the nine-
axis milling machines were delivered to the KGB by Toshiba. It 
was a COCOM discipline that basically punished Toshiba for that 
activity and, I think, to a large degree deterred further 
activities along that line.
    Right now, except for the weapons of mass destruction area, 
we have very, very limited international, multinational systems 
or regimes in place to control technology transfer? COCOM was 
it basically.
    Dr. Fingar. COCOM was it. COCOM, as you know, Congressman, 
was replaced by the Wassenaar agreement, but a major 
difference--and I will invite Mr. Van Diepen to expand on 
this--is that with the breakup of the two camps, the bipolar 
world, the ability to exercise discipline is very different 
than it was. We have more jawboning and less forceful methods 
to enforce discipline within it.
    It is not that I do not think it is a good idea. I just 
think it is a very difficult challenge.
    Van, do you want to add to----
    Mr. Van Diepen. I think that is essentially correct. COCOM, 
in effect, was an economic warfare mechanism against the Soviet 
bloc that was perceived by all the member states as posing an 
existential threat and, as Dr. Fingar noted, in the wake of the 
end of the Cold War, that common perception of a single 
existential threat, a unified list of targets that countries 
were willing to forego economically lucrative exports to wage 
economic warfare against, has basically gone away, and now you 
have much more dual-use technology, much more interest in 
promoting mutually beneficial economic activity.
    Mr. Hunter. Well, let me just finish with this question 
then. Is there anything you would do to change the status quo 
on technology transfer control? Anything?
    Mr. Van Diepen. I think, you know, working in niche areas 
where you can come up with consensus in sort of building that 
brick by brick. For example, in the U.N. Security Council, we 
have been able to get sanctions on specific entities, on 
specific countries, on specific commodities, but trying to sort 
of re-establish that common perception of threat where one can, 
and then also trying to strengthen these informal arrangements 
like the Wassenaar arrangement, like the Nuclear Suppliers 
Group, but I think it is going to have to be kind of a bottom-
up approach rather than a top-down comprehensive approach like 
a COCOM.
    Dr. Fingar. Let me add, Congressman, coming at this as the 
intelligence community rather than as the policymakers who 
would have to devise such a control regime, I think what we can 
do, must do and are doing is to do all that we can to identify 
objectives, specific countries, technologies that they regard 
as keystone, as critical to their ability to move ahead in 
threatening ways, to do everything that we can to persuade 
those who might supply that technology, perhaps to work with 
police and customs officers around the world to interdict or 
perhaps take other measures to inhibit the access to that 
technology.
    So we can do what we can to prepare long laundry lists of 
all of the elements of Hamas or something. It is not going to 
be very helpful, I would not think, to those we support.
    Mr. Hunter. Thank you.
    The Chairman. Mr. Spratt.
    I thank the gentleman.
    Mr. Spratt.
    Mr. Spratt. Thank you.
    Thank you very much for your testimony, and forgive my 
hoarse voice this morning.
    General Petraeus and others have sat where you sit, and 
general officers and senior civil servants alike have said that 
the real solution in Iraq has to be a political solution, some 
grand compromise among the Kurds, the Sunnis and the Shia, and 
you say, I think, the same thing in your report here.
    But you also give a rather bleak assessment of the national 
reconciliation effort that is now underway. You indicate, for 
example, that it is moving in a negative direction as opposed 
to proceeding in a positive direction and that ``given the 
current winner-take-all attitude and sectarian animosity 
infecting the Sunni political scene, Iraqi's leaders will be 
hard pressed to achieve sustained political reconciliation.''
    That does not leave much room for hope or foresight as to 
how this thing comes to some sort of acceptable conclusion. 
What do you do with the situation? If we need a political 
solution, how do we overcome the bleak assessment you have made 
of the government in power right now?
    Dr. Fingar. Congressman, I wish I had the answer to this 
one, but the analysis that the community made in January at the 
time of the estimate appears to be borne out by events since 
then.
    That assessment focused on the imperative for reducing 
levels of violence in the country as a prerequisite for 
beginning to restore some confidence among the competing 
fractured body politic in the groups, in the political system, 
in the ethnosectarian communities, that the surge that began a 
few months ago is having an effect.
    It has not yet had a sufficient effect on the violence, in 
my judgment, to move the country to a place that the serious 
obstacles to reconciliation can be overcome, that the most 
optimistic projection is that it would be difficult and time 
consuming to bridge the political gulf when violence levels are 
reduced, and they have not yet been reduced significantly.
    Mr. Spratt. Let me ask you about the other side of the 
equation, and that is Iraqi Security Forces. One of our 
objectives was to, obviously, build up their forces to the 
point that they were a freestanding force operationally 
effective so that we could turn over to them the responsibility 
for the security of their own country.
    What needs to be done for us to reach that point where we 
can turn over to the Iraqi armed forces the better part of the 
responsibility for the security of their own country?
    Dr. Fingar. Congressman, let me invite General Landry, 
National Intelligence Officer (NIO)----
    Mr. Spratt. Absolutely.
    Dr. Fingar [continued]. For Military Issues, to respond to 
that question.
    Mr. Landry. When you take a look at both the size and the 
capabilities of Iraqi security forces, there is no doubt that 
there have been improvements, and I am talking now about the 
army, much less so in the police. The fact of the matter is 
that they do not have the logistics capabilities, nor do they 
have many of the elements of combat support, for example fire 
support, that they need to be able to perform those kind of 
functions.
    The second thing is that there are many of those units 
today that, in fact, are so riven with a certain degree of 
sectarian infiltration that they are less than the reliable 
forces that you would like to see.
    What does it take? It takes----
    Mr. Spratt. Do you think 135 battalions are sufficient to 
the task?
    Mr. Landry. Would you say that one more time, please?
    Mr. Spratt. Do you think 135 battalions--infantry, combat 
battalions--is an adequate force to cope, to bring the solution 
to some sort of a successful closure?
    Mr. Landry. To be very honest with you, I think you need to 
go to the military to get a feel for just how many forces--we 
do not make those kinds of calculations.
    I will tell you this, that with the capability of those 
forces today, their ability to take over by themselves to 
accomplish the security functions that we are talking about is 
not likely. I cannot talk to you about specific numbers, but I 
can tell you their capabilities today are not likely to be able 
to work alone.
    Now that does not mean that there are certain units that do 
have those capabilities and already are performing them, but 
not as a whole.
    Mr. Spratt. We have known that they would need combat 
service support and combat support and logistics backup. Why 
haven't we been able to multitask and do these things on a 
parallel basis while we were developing and training their 
infantry?
    Mr. Landry. We have been. The question is what is the level 
of sufficiency, and I must tell you it takes a much longer time 
than perhaps we have recognized to be able to accomplish those 
functions.
    Just one other issue, leadership, leaders take years to 
develop, not months, and when I say years, I am talking about, 
in the case of senior leaders, about a decade to develop, and 
they have not had that kind of a capability.
    In addition to that, you are talking about a culture that, 
in fact, has resisted some part of the messages we have been 
trying to bring forth, which is the non-sectarian, professional 
performance of the force, and we have not reached all the 
leaders in that force that are necessary to be able to instill 
those kinds of values.
    Mr. Spratt. Thank you, sir.
    The Chairman. Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much.
    And to the panel, thank you for being here today.
    And, Doctor, I thank you for being the lead at this point.
    I have and have had for a number of years--I have been here 
12, 13 years now--a deep concern about stability issues 
involving Central and South America. I know you have touched on 
this in your abbreviated comments. Are you seeing more evidence 
of al Qaeda's presence in Central and South America in maybe 
not large numbers, but their presence meaning that they are 
trying to have a foothold in some of these countries?
    Mr. Kringen. In general, sir, no, we are not seeing that 
kind of movement in Central and South America. We are much more 
typically worried, frankly, about Europe in that regard in 
terms of that being a safe haven, in part because that allows 
them access to the United States in ways that make it difficult 
for us to keep them out.
    In the South American region, our particular concern is 
with regard to Hezbollah, a Shia organization, you know, where 
they are embedded in certain parts of South America, but we 
have looked very closely in the wake of 9/11 at the whole issue 
of Sunni extremist use of that area of the world, for staging 
terrorist operations and have not found as much as we worried 
might have been the case.
    That does not mean, however, that they would not use it as 
transit points, particularly as venues to try to get in the 
United States. There are well-developed illicit smuggling 
activities to bring individuals in, and that always presents 
some risk, but I would say it is lower than a number of other 
areas of the world--South Asia, Europe and the Middle East, for 
example.
    Mr. Jones. Let me ask you about Honduras. I only ask this 
question because I have a friend I have met in the last few 
years who is from Honduras. He is a Honduran, and he now lives 
in America. He is an American citizen now.
    He has been very concerned about the Arab population that 
is growing in Honduras, not saying that these are terrorists, 
not saying they are going to be terrorists, but it is his 
concern. I share his concern if this is true. He recommended, 
but I have not done it yet, that I buy a book called ``Dove, 
Dollar, and Eagle'' and I have not read the book, but, 
apparently, this is about the Arab influence in Honduras and 
the fact that the influence is beginning to be political, 
meaning that they are beginning to become more and more 
involved in local elections.
    Are you seeing this in Honduras?
    Mr. Kringen. I myself am not in a position to comment on 
that specifically, sir.
    Mr. Cardillo. Neither am I, but I will say that at Defense 
Intelligence, we concur with CIA's view of the current state of 
affairs in Latin America with respect to al Qaeda. But we do 
agree, sir, that there are conditions that do exist that cause 
us to maintain a watchful eye so that those conditions do not 
change into reality. So it is something we continue to look at 
it.
    Mr. Kringen. We will get you a better answer than we have 
been able to provide today, sir.
    [The information referred to is classified and retained in 
the committee files.]
    Dr. Fingar. From, Congressman, a general observation, I do 
not have the specifics on Honduras either, but as a part of 
sort of the global movement toward more responsive governments, 
toward more democratic governments, more electoral 
participation, that immigrant communities kind of around the 
world have more opportunities to become engaged in the 
political process because there is now a political process into 
which they can join and participate.
    So some of this undoubtedly is a positive development of a 
portion of a community that previously was unconnected from 
longstanding political parties. Whether there is a malevolent 
dimension to this in Honduras or elsewhere, we will have to 
look for an answer for you.
    Mr. Jones. Okay.
    Mr. Chairman, I will yield back. Thank you.
    The Chairman. Thank you.
    Dr. Snyder.
    Dr. Snyder. Thank you.
    Thank you, gentlemen, for being here.
    Dr. Fingar, the activities that you all are involved in are 
so crucial to this country and our national security, but it is 
in the context of the strategy of the United States with regard 
to our national security. Would you summarize for this 
committee, please, what you see as being the strategy, the 
national security strategy, of this country toward Iran, Syria, 
Lebanon, and Iraq?
    Dr. Fingar. Congressman, you have put me in the unenviable 
position of being an intelligence analyst asked to comment on 
our own policy, which--
    Dr. Snyder. I do not want you to critique it. I think it is 
a fair question, is it not, because you are in the context of 
what our strategy is?
    As you see it, how would you summarize today the national 
security strategy in the United States toward Iran, Syria, 
Lebanon and Iraq?
    Dr. Fingar. I think the key elements in the strategy are 
stability in a very volatile portion of the world where we have 
many interests, energy being one of them.
    In the case of Iraq--one by one--Iraq is reducing violence, 
facilitating reconciliation, restoring the ability of the 
people of Iraq to live in safety and security in their homes.
    In the case of Iran, at the top of the list is preventing 
Iran from acquiring a nuclear weapon and countering Iranian 
support for terrorist activities. The policy is not aimed at 
taking a position in the Sunni-Shia divide, at limiting 
legitimate aspirations of Iran or anyone else.
    For Syria, primary elements of this are checking Syrian 
behavior that undermines stability in Iraq. Some of it is 
harboring former regime elements. Some of it is allowing 
foreign fighters to cross its territory. On the other side of 
Syria, it is ending its meddling, destabilizing activities in 
Lebanon, that democratically elected government being 
undermined to some extent by Syria.
    In Lebanon, restoration, preservation of stability after 
decades of civil war with a political system that probably is 
no longer approached. Based on allocation of positions, based 
on percentage of the population awarded to different groups 
that no longer conform to the demographic reality, reducing the 
threat that Hezbollah poses to Israel on the southern border, 
and limiting the danger that through Hezbollah Lebanon and 
Syria could become not proxies, but extensions or agents of 
Iran in the region.
    Do you want to add to that, either of you?
    Mr. Cardillo. No.
    Dr. Snyder. Yesterday, Henry Kissinger had a piece in The 
Washington Post in which he focused less on our military 
presence in Iraq and what is going on with regard to that, 
which is of great concern to the American people and the 
Congress, but on the broader issue of diplomacy and the 
relationships of our country with the other nations in the 
region and the world with regard to leading to an ultimate 
solution for Iraq, how right do you think are our relationships 
with nations Syria, Iran, and Lebanon with regard to 
participating in some kind of grand scheme for promoting 
stability in Iraq?
    Dr. Fingar. My own view is that in the case of Iran that 
the price of participation, meaningful in that kind of a grand 
scheme, would be very high. They would set a high price.
    Given the sense that we judge Iranians have of things going 
their way, windfall oil profits, their agents, Hezbollah, 
having, in their view, challenged Israel more effectively than 
have the military forces of any Arab state, stability in Iraq 
is not the highest value for them. I think it is okay for the 
Iranians that Iraqi oil production is down. It helps keep 
prices up.
    Though the Shia majority would have the appearance of 
extending the Shia influence in the region, but the Shia in 
Iraq are not generally beholden to Iran, that it was Shia 
troops who died in the largest numbers in the eight-year war 
between Iraq and Iran, that Syria, I think, has a desire for 
stability, but, again, at what price? Return of the Golan from 
Israel would immediately come up.
    It does not suggest that we should not attempt to negotiate 
with them and to work toward such a solution, but it would not 
be easy.
    And, John, do you want to add something?
    Mr. Kringen. I think the only point I would add is that we 
believe that both Iran and Syria do want a unified Iraqi 
Government. They just want to in the meantime use it as a venue 
to inflict pain on the coalition and forces that they are 
uncomfortable with.
    So we are not beginning here from a premise that their 
objective is the dissolution of the Iraqi state. We actually 
believe that they would like in the long run to have an Iraq 
there that has some stability in the case of Iran that is 
governed by the Shia and, therefore, politically friendly, that 
is open to Iranian economic and other influence. But that is 
the only point I would add, sir.
    Dr. Snyder. Thank you.
    The Chairman. Jeff Miller.
    Mr. Miller of Florida. Thank you, Mr. Chairman.
    Doctor, what role, if any, does global connectivity and/or 
economic globalization play in your threat assessment?
    Dr. Fingar. Globalization is a facilitator of a lot of 
activity, good and bad, that the rapid communications, the 
Internet that makes it possible for groups separated by long 
distances to be in direct contact or learn from one another, 
the wannabes, the affiliates of al Qaeda or other terrorist 
groups that can be located at some distance using Web sites and 
so forth to communicate. These same kind of capabilities enable 
police forces around the world to exchange information and 
airline security people to be on top of developments, the 
amount of commerce that characterizes the global system.
    The amount of goods, technologies moving around the world 
greatly complicates efforts to thwart proliferation. It gets at 
the problem that Mr. Hunter was raising about controlling 
access to technologies. The world is becoming increasingly 
interdependent, that the importance of energy to the world 
economic system, because of the concentration of hydrocarbon 
resources, that accord both wealth and the degree of influence 
to states--Venezuela, Iran, for example, that are not 
particularly friendly to the United States--the danger of the 
cyberthreat, the extent to which the economy or security 
systems are dependent on global communications puts in the 
system a vulnerability here to actors, to state actors, that 
bringing down one bank anywhere in the world could have very 
rapid ramifications through the international financial system 
that would be unlike anything we have encountered in years 
past. That is getting to your question.
    Mr. Miller of Florida. How about foreign investment into 
the United States? That is why I am talking about global 
economic concerns, and the reason I ask is because I was under 
the understanding that we had a vote coming up in just a few 
minutes that dealt with Committee of Foreign Investment in the 
United States (CFIUS), and I have some concerns. It appears now 
it has been pulled off the agenda for a vote in the first round 
of votes today, but coming back from the Senate, it appears 
that it is watered down the director of national intelligence's 
ability to forward or assist or investigate potential 
conflicts, problems, and I would like to know what your 
feelings are on that issue.
    Dr. Fingar. Let me invite General Landry who directs the 
intelligence community input into the CFIUS process for us.
    Mr. Landry. Can you say your question just one more time 
for me, please?
    Mr. Miller of Florida. It was in regards to the Senate bill 
that has come back over to the House, and it appears not only 
has the Secretary of Defense's (SECDEF) role been diminished in 
the ability to ask for an investigation, but also the director 
of national intelligence as well, and my concern is: Is that an 
appropriate move?
    Mr. Landry. Well, as you know, the director of national 
intelligence is not a sitting member nor under the proposed 
legislation would he be. He would still retain an advisory 
function and, frankly, from that perspective, the DNI has never 
taken a position on whether a particular case should be brought 
before CFIUS or whether a particular action should be taken.
    What we do is to provide as impartially as we can an 
intelligence assessment on which--
    Mr. Miller of Florida. And I understand that, but in the 
House-passed provision, it did give the director the ability to 
intervene and the Senate stripped that version out. So my 
question is: Would it have been good to have left the House 
provision in?
    Mr. Landry. We have consistently said that we thought the 
DNI should not be a sitting member on the CFIUS itself. 
Should--
    Mr. Miller of Florida. That was not the question. The 
question was being able to intervene and require an 
investigation to take place.
    Mr. Landry. We do not believe that should have been a part 
of the legislation.
    Mr. Miller of Florida. Okay.
    Mr. Landry. The one thing we do have problems with right 
now is the injunction to get the intelligence assessments done 
within 20 days, which we thought is somewhat onerous.
    Mr. Miller of Florida. And that is something that the 
Senate passed on the 20 days.
    The Chairman. I thank the gentleman.
    Adam Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Two areas of questions.
    One, in your testimony this morning, obviously, there are a 
lot of problem spots in the world, a lot of information out 
there. What I am most interested in is how we process that 
information. I mean, I guess I see sort of a transition point. 
I mean, there was a time when intelligence was about how do you 
get information difficult to come by. Now it is overwhelming 
with the Internet in terms of the amount of information that we 
can generate without even wiretapping anything, I mean, just 
going out there, open source information, and finding it.
    I am not convinced at this point that our intelligence 
community has figured out how to smartly process that 
information so as they find what they need to find as quickly 
as possible and figure out how to use it. So I am curious what 
your thoughts are.
    I met with a group of folks from the company IPS. They have 
a new modeling system for how to process information, open 
source information, that got me thinking on this road. So I am 
really interested in your thoughts on how we process it.
    And, second, focusing on al Qaeda, there has been a lot of 
analysis about how they have sort of franchised out this vision 
of sort of self-starting groups out there that are sympathetic 
to bin Laden, but not necessarily connected to him. But every 
time we pull back the layers of a plot, like, you know, the 
bombing in the U.K. a couple years ago, the plot that was 
thwarted last year--now we have not quite unraveled the one 
that happened just a few days ago--it all seems to point back 
toward Pakistan and Northwest Pakistan and where bin Laden and 
al Qaeda are centrally located.
    So I guess my question here is: Is the center more 
important in al Qaeda's terrorist act than we have perhaps been 
led to believe, that basically they are exercising greater 
control to at least some extent of the people who ultimately 
commit these terrorist acts?
    If you could take a stab at those two, I would appreciate 
it.
    Mr. Kringen. I will talk on the al Qaeda issue and defer to 
others on the information processing or I can dig into that one 
a little bit later.
    I would say I do not think we see it in the context of an 
either-or. We actually see the al Qaeda central being resurgent 
in their role in planning operations. They seem to be fairly 
well settled into the safe haven and the ungoverned spaces of 
Pakistan there. We see more training. We see more money. We see 
more communications. So we see that activity rising.
    At the same time, they are having success in the 
franchising that you talked about or the branding, and the 
example I would use there is what used to be Salafist Group for 
Preaching and Combat (GSPC), which is now al Qaeda and the 
Maghreb, where clearly we see that as they have taken on that 
brand name, they have also gotten more active.
    My understanding is there is another bomb today in Algeria. 
I do not know if it is associated with them or not. But if it 
is, it continues in a pattern of activity. So we see both 
developments going on simultaneously.
    Mr. Smith. What is your view for the best plan to try to 
disrupt that center that has seemed to settle in northwest 
Pakistan?
    Mr. Kringen. Well, sooner or later, you have to quit 
permitting them to have a safe haven there. I mean, at the end 
of the day, when we have had success, it is when you have been 
able to get them worried about who was informing on them, get 
them worried about who was coming after them. The degree to 
which they feel comfortable in that space and the security 
environment they have is the degree to which we get more and 
more concerned.
    I would second one of the comments that you made earlier, 
sir, with regard to the notion that many times when we uncover 
a plot overseas, it is only after you peel back the layers, you 
suddenly find the connections. But, in some cases, those 
connections may not be as centrally directed as before, but, 
nonetheless, may have a financial aspect to it or a planning 
guidance or training.
    So, you know, your comment there is absolutely right on, 
and we always look at those carefully, trying to investigate 
those foreign connections.
    Mr. Smith. Lots of things to be done there. Just quickly, 
smashing that safe haven, I think is enormously important.
    I see we are almost out of time. If you could take a quick 
stab at the processing of intel, that would be great.
    Mr. Cardillo. Let me pick up on that one, sir. You are 
exactly right. This is a major issue for us. When I came into 
the community 23 years ago, we were in hunting mode, and you 
would spend a good part of your day out searching for, looking 
for, trying to get access to the right pieces and sources and 
data so that you could put together context and then make your 
analysis.
    And my analysts today are facing just the opposite problem. 
It is: How do I deal with what is an overwhelming sometimes set 
of data, points and views, and put them together, first get 
some context for myself and then be able to tell the customer 
so what out of all that?
    Now we are pursuing many avenues of approach, both from how 
we do the methodology of analysis, but also tools, applications 
to help us filter, help us prioritize so that when it hits the 
desktop or the in-box, you have a way of at least having a 
better chance of getting to those significant pieces of data 
sooner.
    Mr. Smith. I would be interested in getting some more 
details on that, and I will follow up with all of you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    The gentleman from Texas, Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    We have a problem with our buttons down here. I will just 
have to hold it down.
    Gentlemen, thank you.
    Can you talk briefly about demographic issues within China 
as to what that looks at, you know, looking 10, 15, 20 years 
down the road? You know, I am not so much concerned about their 
economic development. I understand as a sovereign nation, they 
get to build their military against threats they perceive for 
themselves, but can you talk to us about what role overall 
demographic issues have within China in our assessment of how 
that looks as a threat to us?
    Dr. Fingar. I will start and invite others. John and I both 
started out as China analysts a long time ago.
    China's population will continue to grow for about another 
generation. Then it will begin to decline unless there is a 
change in projection.
    China will have one of the most rapidly aging populations 
in the world. I think it is now 15 years out projection that 
there will be more people over 65 in China than there are 
citizens of the United States. An aging population, a couple of 
generations of one-child families, no social security safety 
net, a shrinking pool to support an ever-larger group without 
the normal family ties, you know, a one-child family means 
there are not aunts and uncles and cousins and others that 
would be a part of the support system. So it injects at least a 
potential for fragility to the social system.
    It does have economic problems associated with it, with 
agriculture that is more gardening than farming and so forth. 
The idea of the running out of hands in China seems strange, 
but the model and the trajectory that they have been on, that 
has brought very great success, simply will not be sustainable 
over the long run.
    Mr. Kringen. I would agree. It also may have some political 
repercussions in the sense that the expectation is that the 
state will be able to pick up those sorts of responsibilities 
that at one time were handled by family and other social 
networks and will not be in a good position to do that.
    Dr. Fingar. If I could interject one additional sort of 
dimension, we often focus--and correctly--on the double-digit 
growth in the military budget. The military growth actually 
lags behind the rates of growth in some of these social 
services, starting from a much, much lower base, but the demand 
is enormous.
    Mr. Conaway. As we look at this--and I am also aware of 
some information that those one-child families, those 
individuals are less likely to have children themselves because 
they are so spoiled and self-centered--can we convert all of 
that information into how should we assess the way we look at 
military threats from China to us over the next couple of 
generations? How should we perceive and how should we move 
forward in that regard?
    Mr. Cardillo. It is difficult to say, but you are right, 
sir. It is a factor. I mean, what we look at in Defense 
Intelligence is the professionalization of that military, and 
not just the piece parts of one more sub or one more missile 
system, but how it is that it is operated and can they develop 
a professional non-commissioned officer corps, can they develop 
the types of general staff leadership courses and the like, and 
I think the factors that you bring up--those human factors, if 
you will--do contribute to it.
    It is a growing area of our business as we look at 
leadership profiles and the like, and all's I can say is you 
are touching on a point that we need to include more in our 
analysis of how that overall capability comes together.
    Mr. Conaway. Thank you, Mr. Chairman. I yield back.
    The Chairman. The gentleman from New Jersey, Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman.
    I thank the witnesses for their testimony.
    I want to preface my question by saying I have profound and 
utmost respect for you gentlemen and the people you represent, 
the sacrifice and patriotism that you and the people you 
represent are making for the country. I am profoundly grateful 
for what you do.
    Dr. Fingar. Thank you, Congressman.
    Mr. Andrews. Second is I want to preface my question by 
saying that I want you to answer my question within the bounds 
of good sense, given the fact we are in a public forum.
    I want to ask you a question that I think is very pregnant 
on the minds of the American people with respect to what you 
have identified as the greatest threat to our security, which 
is al Qaeda, and particularly with respect to its leader, Osama 
bin Laden.
    By my calculations, it has now been 2,098 days since 
September the 11th. We have had broadcasts from Osama bin 
Laden, some of which are probably authentic, some of which are 
not. We have had some indication he is in contact with other al 
Qaeda cells and operatives around the world. And we do not, I 
assume, definitely know what his state of health is, but we 
assume he is alive.
    Now I do not equate capturing or killing Osama bin Laden 
with victory in the war against al Qaeda by any stretch of the 
imagination, but I also understand that the psychological value 
to the American people and around the world and the strategic 
blow that it would strike to al Qaeda around the world is 
obviously of great significance.
    I do not mean this as a rhetorical or hostile question, but 
after spending a huge amount of money for a period of time in 
excess of 2,000 days, with what I hope is a focus on 
apprehending a person who is responsible for the murder of more 
than 3,000 Americans, why haven't we succeeded?
    Mr. Kringen. Let me frame this first with a couple of 
comments. We, like you, continue to assess that Osama bin Laden 
is alive. We continue to assess that he is probably in the 
tribal areas of Pakistan.
    In terms of your frustration and I think the frustration of 
anybody who has been working on this problem since 11 
September, the challenge we face is those are ungoverned spaces 
in which the Pakistani government does not control much of 
that, very tribally based, and so it is very, very difficult--
--
    Mr. Andrews. If I may----
    Mr. Kringen [continued]. To operate in that environment.
    If I could just say one more thing and then----
    Mr. Andrews. Yes.
    Mr. Kringen. The other thing is Osama bin Laden in 
particular goes into extended periods in which he does not 
communicate, does not interact with anyone directly.
    Mr. Andrews. All right, but isn't there a distinction 
between an ungoverned area and a tribally governed area? I take 
it at face value that the Pakistani regime does not have 
control over some of these areas, but someone does. Some tribe 
has some control over what goes on in this area.
    Why haven't we made more progress in understanding the 
incentives, the disincentives, the economic realities of the 
tribal leaders that have some, if not control, knowledge over 
what is going on in these areas?
    Mr. Kringen. In some cases, those tribal leaders are the 
very people who are protecting him, sir.
    Mr. Andrews. Well, but they must then interact----
    Mr. Kringen. And they are not necessarily motivated. We 
have had rewards out for bin Laden for a long period of time, 
and economic motivation is not a principle driver of----
    Mr. Andrews. But those tribal leaders must in turn interact 
with other outside forces outside the circle, whether it is for 
material support, economic support. I mean, you know, the more 
people you get involved in something, the more people they 
become reliant upon, and somebody in that circle must not be a 
sympathizer. Why aren't we making more progress on that?
    Mr. Kringen. All I can tell you in this particular context 
is it is an extremely challenging environment in which to 
operate and to turn individuals who would be the people who 
have the access into people who are willing to work with the 
U.S. Government.
    Dr. Fingar. Let me just add it is certainly not for want of 
trying.
    Mr. Andrews. I do not doubt that.
    Dr. Fingar. We share your frustration.
    Mr. Andrews. I do not doubt it.
    Dr. Fingar. Being number three in al Qaeda is a bad job. We 
regularly get to the number three person. The security measures 
and the lessons learned about do not turn on your cell phone, 
all that kind of stuff--I guess even in the mountain redoubts 
know what has led to the killing and capture of people 
elsewhere--the security practices are very good, as John 
indicated.
    They are in an environment that is more hostile to us than 
it is to al Qaeda and the appeal of call it the ideology rather 
than the religion exceeds the appeal of money or any other 
blandishment that we have been able to offer.
    Mr. Andrews. I understand. Thank you very much.
    The Chairman. Thank you.
    The gentlelady from Virginia, Ms. Drake.
    Mrs. Drake. Thank you, Mr. Chairman.
    And thank you for being here. It is very interesting 
conversation.
    But what I wanted to ask, as we are discussing the impact 
and the future impact of our military commitment in Iraq and 
what that impact has on future operations, have you also 
assessed what the impact would be of a withdrawal?
    The Iraqi foreign minister was here, spoke with a group of 
us, and has recently been quoted in the press saying the same 
thing of what those consequences would be, we have also met 
with the ministers of surrounding countries who have been clear 
with us on what the consequences would be in their countries if 
we were to pull out abruptly, and in the Kissinger article just 
recently, he makes the quote that withdrawal would not end the 
war, but would shift it to other areas.
    So my question is can you assess what the impact would be 
if we took that action, what the impact would be on our 
credibility, what the impact would be on our ability to mount 
operations in the future, particularly where it would require 
the trust and cooperation of other populations and particularly 
special operations missions?
    Dr. Fingar. Let me begin the answer and invite colleagues 
to jump in.
    Again, framing it, the impact on the broader geopolitical 
picture that you sketched out, I think, will be very much 
dependent on the nature of the withdrawal, how rapidly, to what 
places, within what kind of internationally discussed 
framework. So I do not think that is automatically one thing or 
another thing. How one does it matters.
    A second is a function, I guess, of the gray hair. Those of 
us who lived through Vietnam and thought about, heard about the 
dominoes, the impact, American credibility around the world, as 
traumatic as all of that was, much of the worst casing did not 
happen, I think in part because the Soviet Union continued to 
exist. We still did have an organizing rubric.
    The third point I would make would be to return to the 
judgment in the January National Intelligence Estimate on Iraq 
in which we looked at a rapid drawdown. That was the only 
scenario we looked at because it was predicated on ``if you 
take the targets away, does the violence go down'' approach.
    And I think we are still where we were at the time of that 
estimate, and I will simply read it: that ``coalition 
capabilities, including force levels, resources and operations, 
remain an essential stabilizing element in Iraq. If coalition 
forces were withdrawn rapidly during the terms of this 
estimate''--it was 18 months--``we judge that this almost 
certainly would lead to a significant increase in the scale and 
scope of sectarian conflict in Iraq, intensify Sunni resistance 
to the Iraqi government and have adverse consequences for 
national reconciliation.''
    Do either of you want to add to that?
    Mrs. Drake. And also on the future, what our credibility 
would be, have you assessed that?
    Dr. Fingar. We have not specifically looked at, you know, a 
hypothetical what would our credibility be around the world.
    Mrs. Drake. Or our ability in the future to work another 
area.
    Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mrs. Davis.
    Mrs. Davis of California. Thank you. Thank you, Mr. 
Chairman.
    Thank you to all of you for being here.
    Perhaps this is a different way of stating the previous 
question, but I am just wondering, you know, what conditions do 
you think could be met for our adversaries to view our 
withdrawal as anything but a victory for them? Are there 
conditions that you would look to?
    The second question really would just go with the way that 
our adversaries view both our strengths and our weaknesses. How 
would you assess that--our reliance on foreign oil, our 
reliance on technology, our forces, the fact that they are 
stretched today? Could you please comment on that?
    Mr. Cardillo. I will just start with, obviously, when you 
discuss adversaries, there is quite a range from non-state all 
the way up to state actors. Certainly, across that range, there 
are going to be some adversaries that will take whatever we 
do--and, oh, by the way, that includes staying, okay--as a 
failure, and so, in my mind, you have to just kind of park that 
this is a broad campaign of information competition that will 
continue.
    So I think your question is how do we best posture 
ourselves so that we can be competitive in that environment. To 
me, ma'am, it is about transparency of purpose to the extent 
that we can--and this is the difficult part--come with 
definitive objectives that can be identifiable and to some 
degree measured, but therein lies the real problem, the one 
that we are having now with respect to our translation or our 
definition of success--even the people that we are trying to 
help--and so I would just offer that within that environment, 
the more that we can communicate clearly what it is we are 
doing and why we are doing it, that we will have a chance to 
go. At least it is the bulk if the population that is on the 
fence, you know, not on one extreme or the other.
    Dr. Fingar. Let me make it even more complicated. May I 
associate myself with the comments that both of you had made, 
that it is not only what has been said and the how it has 
played out, but for some of the audiences, adversaries hostile 
or at least very critical of what we are doing--and I would 
distinguish between those that are hostile and those that are 
not happy with our involvement in Iraq--a mixture of glee that 
we have had our comeuppance and relief if they judge that that 
will enable us to get back to doing some things in ways that 
they might prefer.
    Will al Qaeda and others view this as having defeated and 
depicted, as having defeated the sole remaining superpower in 
the same way that the Muhjahadeen claimed credit for defeating 
and contributing to the downfall of the Soviet Union? It is 
information. It is a message. I actually have a pretty high 
level of confidence in our ability, U.S. Government, society 
writ large, to work the modalities of any decision in ways that 
minimize the downsides and avoid some of the more cataclysmic 
predictions of dire consequences of staying or going or doing 
any other particular course of action.
    Mrs. Davis of California. Could you comment on the second 
question on the strengths and weaknesses? Perhaps you do not 
have enough time. I am sorry, but----
    Mr. Kringen. Just a couple of thoughts: If you look at two 
nations that we care a lot from a national security point of 
view, namely Iran and China, what they clearly see is our 
ability to integrate technology into our military operations in 
a very closely knit fashion where you have intelligence and 
surveillance assets guiding military operations, doing that 
real time, doing it at night.
    So where you see them embarking on their efforts is what 
Tom alluded to earlier, which is various forms of asymmetric 
warfare in which they try to degrade those capabilities, 
whether it is, you know, an anti-satellite program to at least 
threaten our satellite capabilities or swarms of small vessels 
in the Persian Gulf, so very much focused on asymmetric 
approaches and not, frankly, trying to match us one for one in 
terms of the technology and the forces that we have.
    The Chairman. Thank you.
    Mr. Akin.
    Mr. Akin. Thank you, Mr. Chairman.
    Let's assume that we do some kind of a scenario in terms of 
moving out of Iraq, and let's say that we manage that to a 
certain degree so there is not a big civil war or something 
there. The people that we are fighting there, though, are then 
going to be picking new targets to a certain degree, and is it 
true that they would then probably go after Turkey and Jordan 
and try to destabilize those countries and make sure that Iraq 
returns to the column just like Iran? Wouldn't they move to 
those other more moderate Middle Eastern type countries?
    Mr. Kringen. One assessment that we have made is that al 
Qaeda and Iraq have as one of its principle plans conducting 
external operations within the region. We believe they have 
been unable to be very successful in those activities. There 
was, indeed, an attack on some hotels in Amman that you may 
remember, but because they have been so preoccupied with their 
internal operations, that mission has gotten shorter shrift.
    But we certainly believe that Jordan would be part of that, 
possibly Turkey, certainly, you know, Israel would be part of 
their plans, but a regional plan, in effect a hub, should they 
be able to sustain an environment that allows them to do that. 
So, certainly, we would see----
    Mr. Akin. Would they probably emerge as the leaders? If we 
move out, would they emerge as the leaders in one shape or 
another in Iraq? Is that hard to predict?
    Dr. Fingar. It is hard to predict, but I will make a 
prediction, one in which I have a fair degree of confidence, is 
that it will be difficult for Iran to hold Iraq in its sway, 
that the Arabs are not Persians, that at some point that 
becomes more important than the Shia affinity.
    As one of the most influential Shia clerics has put it, 
``Yes, he spent a great deal of time in Iran, but being under 
house arrest did not make him feel warm and fuzzy toward the 
Iranians,'' that the very different views of the role of the 
clerics in governance, the Velayat-e Faqih approach of the 
Iranians is not accepted by the most influential of the Iranian 
clerics. They believe sort of governance is a bad and dirty 
thing, and the religious should not be deeply involved in that. 
It is the separation of church and state kind of thing, that--
--
    Mr. Akin. So the Iraqis are more into that separation than 
the Iranians are?
    Dr. Fingar. Yes, yes.
    Mr. Akin. Okay.
    Dr. Fingar. Yes. They reject it as an element of theology.
    Amir, have I got that right?
    Mr. Akin. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman.
    Thank you, gentleman.
    I, too, admire your patriotism, but I only have three 
questions and five minutes. So let us both be short-winded.
    Yesterday in another committee that takes sworn testimony, 
the former surgeon general of the United States admitted under 
oath that he had been coached in his testimony before Congress, 
prevented from saying certain things involving stem cell 
research, global warming, and required, for example, to mention 
President Bush three times on each page of his testimony.
    Were any of you gentlemen coached by political appointees 
in your statements before this committee today?
    Dr. Fingar. Absolutely not.
    Mr. Kringen. No, Congressman.
    Mr. Cardillo. No, sir.
    Mr. Cooper. And your answer would not change if you were 
sworn?
    Dr. Fingar. Absolutely not.
    Mr. Kringen. Absolutely not.
    Mr. Cardillo. No.
    Mr. Cooper. Second question: When you stress in your 
testimony that al Qaeda poses the number one threat to U.S. 
interests, are you unintentionally helping build the al Qaeda 
brand that in turn may help them franchise their operation?
    Mr. Kringen. I would say that that is a risk. On the other 
hand, I am not sure what the alternative approach is given that 
it is our judgment that in terms of a capability to attack the 
U.S. homeland, al Qaeda is the number one threat.
    Mr. Cooper. Well, this involves some deeper questions, but 
when they are also trying to hijack one of the world's great 
religions for their violent extremist ends, they may be using 
us as a means of doing that, and we may be playing into their 
hands by highlighting the threat, you know, that they pose vis-
a-vis other organizations.
    That brings me to my third point, which is when you stress 
that al Qaeda is our number one enemy and then you say, ``Well, 
they are probably operating in an ungoverned space possibly in 
Pakistan, maybe Waziristan,'' who knows, but isn't it 
interesting that it is an ungoverned space, uncontrolled by the 
Pakistani government, but yet controlled sufficiently by the 
Pakistani government that we cannot intervene militarily? So it 
is not controlled, but it is controlled. This is the Pakistani 
paradox. Which is it?
    Dr. Fingar. Well, there is a difference between the 
Pakistani government's ability or inability or limited ability 
to control what happens in that space, and our respect for the 
territorial sovereignty of a key ally in the war on terror. It 
is not that we lack the ability to go into that space, but we 
have chosen not do so without the permission of the Pakistani 
government.
    Mr. Cooper. Are they a key ally if they fail to help us 
find America's number one enemy?
    Dr. Fingar. Again, it is a mixed picture. The Pakistanis 
have been extremely helpful and have captured or enabled us to 
capture a very large number of al Qaeda figures. They have not 
enabled us to capture everybody.
    John, do you want to add to that?
    Mr. Kringen. No, I think that is right. Their track record 
in what we describe as the settled areas of Pakistan in terms 
of helping to capture those individuals has actually been very 
strong.
    Mr. Cooper. Aren't you just justifying the very disturbing 
status quo in which our number one enemy is actually growing in 
size and has grown since 9/11 and the initiation of the war in 
Iraq?
    Mr. Kringen. I would not say we are justifying. We are 
describing it. I mean, this is the dilemma, sir.
    Mr. Cooper. But we are not taking actions to diminish the 
size of our number one enemy, at least not effective action 
that would decrease their ranks or decrease their capability?
    Mr. Kringen. In another forum, we can talk about what 
actions are being taken or not taken at this point in time.
    Mr. Cooper. It is interesting that we are in a situation in 
which even Secretary Rumsfeld at DOD tried to change the name 
of the war from GWOT, the global war on terror, to GSAVE, the 
Global Struggle Against Violent Extremism, but was unable to do 
that, as we understand it, due to White House urging.
    When someone like that tries to nuance the debate or shift 
the focus, is unable to, and we are back in the same situation 
we have been for lo' these several years, the number one enemy 
in an ungoverned space that is sufficiently governed, we cannot 
catch him, and also admitting in a public forum that the ranks 
of our enemies are growing, not diminishing. That does not 
sound like a formula for success to me.
    Dr. Fingar. Not to be too overly simplistic, I hope, but 
part of the dilemma that you correctly identified here is the 
risk of taking actions in the less well-governed areas of 
Pakistan, the federally administrated tribal areas, the 
northwest areas that could lead to developments in all of 
Pakistan, that would increase the problem.
    There are an awful lot of potential recruits being engaged 
in the struggle in Kashmir that are held in check by the 
security forces in the rest of Pakistan, so it is not too great 
an exaggeration to say there is some risk of turning a problem 
in Northwest Pakistan into the problem of all of Pakistan.
    Mr. Cooper. I see that my time has expired.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Four votes have been called for 1:15, then three five-
minutes.
    Mr. Franks.
    Mr. Franks. Thank you, Mr. Chairman.
    And I first want to thank the witnesses for their testimony 
and their participation. Kind of behind the scenes, you are the 
hidden front line of freedom, and we appreciate what you do 
very much.
    I also want to thank you for reminding this committee what 
our responsibility really is, which is to ensure that the U.S. 
is able to defeat adversaries who threaten U.S. interests.
    Having said that, I wanted to address one point quickly. 
You know, to suggest that we are not doing anything to diminish 
al Qaeda is to ignore some of the warfare that is taking place 
against them. Many of their leaders, many of their ranks have 
been decimated and, certainly, in an ideological war like this, 
it is important to remember that the image that is portrayed 
has a great deal to do with whether or not the ranks of 
recruitment are increased or not.
    And I just think it is very, very important that we realize 
Mr. Fingar's comments about this being an ideological base that 
ties things together. We need to understand that this ideology 
is the most dangerous aspect that we face and that, if they see 
a weakness on our part or a willingness to back off, I do not 
think that that is going to diminish them at all.
    But I had to say that. Having said that, this committee is 
going to be considering in the near future extending more 
rights to enemy combatants such as in Guantanamo, and former 
Attorney General William Barr testified before the Senate 
Judiciary Committee in July of 2005, and he said this. He said, 
``What we are seeing today is an effort to take the judicial 
rules and standards, make them applicable in domestic law 
enforcement context, and extend them to fighting wars. Nothing 
could be more farcical or more dangerous.''
    And I know there is a pretty intense debate about extending 
the constitutional types of protections that we give to those 
that live in this country to those that are combatants against 
this country outside the nation, but, Mr. Cardillo, I would 
like to perhaps start with you. What do you think would be the 
impact of that, and what do you think is the proper approach? 
Do you think that we should extend these kinds of judicial 
rules that we apply to domestic law enforcement to enemy 
combatants?
    Mr. Cardillo. I do appreciate the question. I really must 
tell you I do not believe I am qualified to answer.
    Mr. Franks. Would there be anybody else on the panel that 
would want to take a shot at it?
    Dr. Fingar. I think it would be inappropriate--
    Mr. Franks. All right. Well, let me shift gears then. Let 
me get back to Iraq.
    We had talked about earlier that some of the 
prognostications about Vietnam did not materialize, but isn't 
it true that somewhere around between one and two million 
people died after the U.S. withdrew, mostly Cambodians, and 
that that was a human tragedy all by itself and that if, 
indeed, we withdrew from Iraq abruptly, what do you think--Mr. 
Cardillo, I will start with you again here and we will run down 
the line--would be the human impact and how do you think that 
that would affect both the image of the United States on the 
world stage and al Qaeda's ability to recruit additional 
people, and if the Iraq government did not stand, what do you 
think would be the outcome?
    Mr. Cardillo. Sir, if I could equate your statement, abrupt 
withdrawal, with what we called a rapid withdrawal when we did 
our assessment, we would agree that conditions would 
deteriorate and that the amount and intensity of sectarian 
violence would increase. I cannot give you a number, okay, to 
say what that would equate to.
    Mr. Franks. To go beyond sectarian violence, how do you 
think it would impact terrorist recruitment that might come 
against the United States?
    Mr. Cardillo. I know it would be used, okay, as a marketing 
tool and an attraction for their cause. Again, I think if it 
was abrupt, okay, and caused those conditions to occur that we 
think would happen, it would also be in a sense a force 
multiplier for that recruitment.
    Mr. Franks. Compare with me for a moment the difference 
between us staying there until the Iraqi government can stand 
by itself or withdrawing too soon to where the Iraqi government 
falls. Fall or stand? What is the difference in the outcome, do 
you think, as far as the security of the United States goes?
    Mr. Cardillo. The security of the United States would 
begetter served with an Iraqi government that could stand on 
its own.
    Mr. Franks. Well, thank you, Mr. Chairman. I have run out 
of time. Thank you.
    The Chairman. Mr. Murphy, let's try to get you in before we 
break for the four votes.
    Mr. Murphy. Thank you, Mr. Chairman. I appreciate it.
    I have always said, Mr. Chairman, that the American people 
do not need to be reminded that we need to win the war on 
terror. What we need is leaders who put forth the real plan to 
do it. I have been outspoken in my views that the current 
Administration has failed to offer a real plan to win the war 
on terror.
    Gentlemen, I appreciate your service to our country, but I 
believe one glaring example of this Administration's failure 
has been our relationship with Pakistan, and I echo the 
sentiment of Representative Adam Smith, Rob Andrews, Mr. Cooper 
in their earlier lines of questioning.
    I do not have time to recite all the troubling accusations 
recently made toward our ally, but I want to name a few.
    One, a peace deal that allows Islamic militants allied with 
the Taliban and al Qaeda to operate freely in increasing 
strength, a situation Pakistan's own interior ministry called 
``a general policy of appeasement toward the Taliban.''
    Two, at least one account by our American soldiers that 
Pakistani security forces fired mortar shells and rocket 
propelled grenades (RPGs) in direct support of Taliban ground 
attacks on the Afghan army post.
    And, three, recent accounts that Secretary of Defense 
Donald Rumsfeld aborted a raid on al Qaeda chiefs in Pakistan 
in 2005.
    The U.S. has provided $5.6 billion in coalition support 
funds to Pakistan over the past 5 years with zero 
accountability. As one senior military officer described the 
situation, ``They send us a bill, and we just pay it.''
    So my questioning is twofold then. It goes hand in hand.
    One, why is Pakistan still being paid these large sums of 
money even after publicly declaring that it is significantly 
cutting back patrols in the most important border area?
    And, second, I would like to echo a sentiment first 
expressed by Senator Jack Reed. Why are we not paying for 
specific objections that are planned and executed by the 
Pakistani military, rather than just simply paying what the 
country bills us?
    Gentlemen, I would like all your responses to that two-part 
question.
    Thank you.
    Dr. Fingar. Congressman, I am not sure how to answer it 
because they are questions for those who make and implement 
policy. Your question of why the Administration is doing things 
one way rather than another is not a subject that we----
    The Chairman. Do your best to answer the question, please.
    Dr. Fingar. I have to assume that the calculus of costs and 
benefits and risks associated with the strategy has led to the 
conclusion that what is being done is appropriate. What the 
elements of that calculation are, I do not feel qualified to 
speculate.
    Do either of you want to add to that?
    Mr. Kringen. The only thing I would add is to one of your 
first observations there, we would agree that the peace deal 
with Waziristan has not been helpful in terms of the 
antiterrorist effort. Musharraf's rationale for that was that 
in the long run it would create the political space to create a 
more stable environment. From our assessment, we have not seen 
the developments go in that direction, but actually in a 
negative direction. So we would second one of the premises of 
your question, sir.
    Mr. Cardillo. Without speaking to the dollar amounts and 
the measurements along with that, we would agree that there are 
conditions that have come on the backside of that agreement 
that have made it more difficult for us to achieve objectives. 
So, from an intelligence assessment perspective, we have seen 
more downside than up.
    Mr. Murphy. Can you elaborate on that last point? More 
downside than up in regards to?
    Mr. Cardillo. Well, because, look, there was an agreement 
to provide an additional amount of confidence and security on 
the adversary's side. The trade was to be an eventual increase 
in governance in the area. So, when I say we have seen the 
first part of that go through, but not the second, at the end 
of the day, we see a worse condition than was before the 
agreement.
    Mr. Murphy. Well, gentlemen, I know with your professions 
in the intelligence industry and being someone that worked with 
our intelligence units in Baghdad when I was there a few years 
ago, when you give them specific objectives and the carrot that 
is used is financial carrot, would not it make more sense to 
hold specific objectives to and give them to the Pakistani 
government and hold them accountable for these financial 
carrots, these $5.6 billion that we are giving them? Yes or no?
    Dr. Fingar. I think the answer has to be, yes, that 
provision of assistance should be properly tied to expected 
outcomes, and the outcomes which people have committed, they 
should be held accountable for.
    Mr. Murphy. Thank you.
    Mr. Chairman.
    The Chairman. We have three minutes within which to make 
the vote, and, gentlemen, we shall return. We appreciate your 
waiting for us for our four votes. Thank you.
    [Recess.]
    The Chairman. The gentleman from Georgia, Dr. Gingrey.
    Dr. Gingrey. Mr. Chairman, thank you so much.
    Gentlemen, I apologize for coming in to the hearing a 
little late this morning. I missed most of it, and I am sure 
that there is a possibility that my question has already been 
asked and answered, but if you will bear with me, first of all, 
I really appreciate, as I read your bios, the important work--
life's work really--that you guys have done for the country, 
and it could not be more important. So this is very timely, and 
we are very appreciative of it.
    I am, if you do not know, in my prior life, a physician. I 
practiced medicine for 31 years before being elected from the 
11th District of Georgia.
    This situation that occurred recently in London and Glasgow 
was bad enough, but when we realized that the perpetrators 
were, in fact, mostly physicians or health-care workers, I was 
absolutely appalled by that, and then I realized, of course, 
that they were working for the British health-care system, 
national health-care system, and so it concerns me.
    We have some great, great doctors in this country who are 
foreign medical graduates. Don't let me suggest that they are 
not doing a great job for us, and they do.
    But I have been real concerned about things like the visa 
waiver program and maybe now we ought to take a look, step back 
and look at the J visa program which would pertain to foreign 
medical graduates.
    The question that I am leading up to is this: We enjoy and 
promote and talk about how important the global economy is and 
global connectivity and how that is the wave of the future, 
fair, free trade and all of this. How does this play into what 
you worry about at night, what keeps you awake at night?
    Do you concern yourself with things like the visa waiver 
program? When you have 27 countries from Western Europe 
mostly--you know, back in 1978 or whenever this program 
started, it was probably to promote tourism and globalization, 
global economy, whatever.
    And now there is also a move afoot to even expand that to 
two additional countries, and yet, you know, in our law, in the 
Patriot Act, a border security secure entry bill--back in 2001, 
we said that at date certain we have to have the U.S. visit, we 
have to make sure those countries have passports based on 
biometrics so that, you know, we are not just stamping 
something that could be anybody.
    I would like for you to talk about that a little bit and 
respond. It is not in the way of a question, but maybe each one 
of you can touch on that a bit.
    Thank you, Mr. Chairman.
    Dr. Fingar. I will take the first whack at it, and this is 
more reverting to my previous position in the State Department.
    I actually do not spend a lot of time worrying about the 
visa waiver program. As you know, I am sure, Congressman, that 
one of the reasons that it exists is to be able to concentrate 
the resources, consular officials and so forth, in areas judged 
to be higher threats, or risk management, X number of consular 
officers in Y number of interviews able to be conducted, put 
them in the higher threat areas.
    Other aspects of managing the crossings of our border, 
knowing where people are when they come here, knowing whether 
or not they have actually departed in accordance with the visa 
is something that troubles me a little more than this.
    But I think the movement of people, the movement of ideas, 
the familiarity with our country, the number of people who 
come, the vast majority of whom who are not a threat to us that 
pick up understanding, even if not greater affection for us, 
that then I judge that it nets out to a benefit to us when they 
go home and have had a positive experience and can talk about 
what America is and counter some of the caricatures of what 
life is like in America, whether it is standing up in a 
community hall or religious institution.
    Dr. Gingrey. I know I am running out of time, Mr. Chairman. 
I talk too slow.
    But in regard to that, I think we are talking about today, 
though, a soft underbelly, if you will, and I would agree with 
what you just said, in 1978, whenever, visa waiver was started 
and the purpose of which. That all makes sense, but I am 
concerned today.
    I wish I had more time because I would love to hear Mr. 
Cardillo and Mr. Kringen also respond, Mr. Chairman, but I see 
I am limited.
    The Chairman. We will have a second round shortly.
    Mr. Sestak.
    Mr. Sestak. Thanks, Mr. Chairman.
    Sir, Dr. Fingar, when you spoke about the rapid drawdown 
and your conclusion of what would occur, did it include in the 
outcome that you said the efforts, if it were to happen, that 
would be also happening at the same time potentially if Iran, 
Syria, Saudi Arabia, were serious about trying to accommodate 
stability in Iraq? Was that part of your assessment of its 
spiraling downward?
    Dr. Fingar. No, that was not part of it.
    Mr. Sestak. The second question then is you spoke that 
negotiating with Iran would be hard, but you said, ``I am not 
suggesting we not do it.'' You also said--I think you, sir--
that Iran is inflicting pain on us because we are there, and 
then you said, ``But it does not want a fractionalized 
government.''
    What does your intelligence say that if Iran were to work 
in what your testimony said had great influence on select 
extremist groups, knowing that a lot of this violence is being 
perpetrated by an extreme violence group, what would your 
outcome then be, if we are there and/or if we are not there?
    Dr. Fingar. The framing of the answer is that there are 
Iranian links to extremist groups like Hezbollah. There is an 
indirect relation, Hezbollah assisting in training of groups 
that attack us in Iraq----
    Mr. Sestak. Understand that, but what would be the outcome?
    Dr. Fingar. I am also not sure how to answer that question.
    Mr. Sestak. Wouldn't it be important to answer this? As I 
go through your testimony----
    Dr. Fingar. Yes.
    Mr. Sestak [continued]. It is a great snapshot, but it is a 
good snapshot primarily upon the military situation, and yet 
intelligence has so much to do with the political intelligence, 
diplomatic intelligence, economic intelligence, and this is 
such an important part, people have said, ``Can Iran be part of 
the solution?''
    Dr. Fingar. Iran ultimately has to be part of the solution, 
in my view, that when violence is reduced, governance is 
improved because it is a major nation in the region and there 
are long historic conflicts with Iraq----
    Mr. Sestak. Sir, not to interrupt, but only because of 
time, if that is so and the United States were to have its 
influence be such that it could negotiate hard, it does not 
want a field coalition as government, what would the outcome in 
your intelligence estimate be for Iraq, whether we are not 
there in a year to 18 months or if we were there? The first 
please.
    Dr. Fingar. I----
    Mr. Sestak. This is an important issue because----
    Dr. Fingar. Oh, it is a very----
    Mr. Sestak. What if Iran were pulled into this where she 
does not want a failed government?
    Dr. Fingar. The difficulty I have squaring--and I will hand 
it off in a moment--is that----
    Mr. Sestak. Understand.
    Dr. Fingar [continued]. For Iran, the nature of what is 
left and what is our role, they do not want an Iraq in which we 
in some form or another could be conceived by them as a threat 
to their existence. It might have to do with basing. It might 
have to do with for us we would be a training presence for them 
that would be a hostile----
    Mr. Sestak. Could I assume from what you are saying, it is 
an important ingredient to think about?
    Dr. Fingar. Absolutely.
    Mr. Sestak. It is an important ingredient that potentially 
if we have no bases it might be more attractive to them?
    Dr. Fingar. Well, I think all of the kinds of issues you 
address----
    Mr. Sestak. So your intelligence supports that dealing with 
Iran may well be one of the keys to an unfailed state, 
including our not being there.
    Dr. Fingar. I would put it slightly differently. The 
intelligence----
    Mr. Sestak. Slightly.
    Dr. Fingar. The intelligence makes clear that Iran is a 
very important player----
    Mr. Sestak. I am out of time, but then is there a possible 
strategic approach to redeploying and not leaving a failed 
state?
    Dr. Fingar. I hope so.
    Mr. Sestak. Thank you.
    The Chairman. Ms. Shea-Porter, please.
    Ms. Shea-Porter. Thank you.
    My question has to do first of all with the question about 
why have we lost so many friends in that region and could you 
tell me where we were, in your opinion, six years ago versus 
now for the Middle East, and if you see the loss of respect and 
loss of support and loss of available intelligence information, 
what you attribute it to, please.
    I welcome anybody to answer that or all three.
    Mr. Kringen. If you could take another run at the question 
because I am not sure I quite understood----
    Ms. Shea-Porter. Looking at what has happened in the Middle 
East in the period of maybe six years now and looking at how 
much more difficult our relationships are with other nations, 
the lack of support, problems with intelligence, et cetera, 
what do you attribute that to?
    Do you think it is actually policy? I realize you do not 
make policy, but I am asking you to speak about if you think 
that our involvement in Iraq has been detrimental to your 
ability to get the intelligence and to make friends. Basically, 
why we have lost so many friends in the region and there is so 
much hostility?
    And, also, address the growth of the terrorist groups in 
that region.
    Mr. Kringen. In terms of the growth of terrorist groups, 
there is little doubt, I think, that our engagement in Iraq has 
served as a focal point for Sunni extremists to flow into their 
conflict and has served as a rallying point more broadly 
internationally.
    In terms of our relationships, I guess I do not see them as 
having changed as much as you would seem to imply by your 
question in terms of our relationship with Jordan, Israel, 
Egypt, other countries in the region. They may in some cases be 
critical of U.S. policy actions, but I do not see that having 
resulted in a major shift in their orientation toward the U.S. 
overall in the Middle East, which they still see as very 
important, something that needs to be maintained.
    So maybe if you can give me a little better sense----
    Dr. Fingar. Let me take a run at it, building on what John 
has said, that I would distinguish between discontent in the 
region with things we are doing, attacking an Islamic country, 
occupying an Islamic country in their characterization of it, 
propping up governments so that we have access to oil, again in 
the way they would conceive of it, as opposed to hostility 
toward American values, American way of life.
    One of the great ironies is the length of visa lines in 
these countries where people want to come and study and take 
part in the world that we are in.
    The second is the growing political awareness through, 
again, the Internet, satellite television, everything else, of 
populations that are basically dissatisfied with the quality of 
governments and quality of life and the non-responsiveness of 
their own governments and see us as playing a role in 
supporting their governments, warts and all, for our interests 
that they do not see as consistent with their own political 
interests.
    Ms. Shea-Porter. I am going to change the direction maybe. 
Is it harder for you to get intelligence now from that region 
than it was six years ago? Is it harder for you to have a 
handle and find out what is actually happening on the ground 
and more difficult to track terrorist activity than it was six 
years ago? Are there fewer people willing to speak up?
    Dr. Fingar. No.
    Ms. Shea-Porter. No.
    Dr. Fingar. No.
    Ms. Shea-Porter. Okay. Let's jump to Europe then. Would you 
say that our relationship with Europe are strained over 
policies and is it harder to work with Europeans for that 
reason?
    Dr. Fingar. I do not want to talk broadly about Europe 
because with all places, it is country dependent, but, indeed, 
clearly in places like Italy and Germany, as you can see by 
various legal actions they have taken, that they are concerned 
about some of the things that we have done with regard to 
counterterrorist activity, yes.
    Ms. Shea-Porter. Does it worry you about our ability to get 
them to see us in a warmer light, in a friendlier light?
    Dr. Fingar. I am less worried about seeing us in a warmer, 
friendly light than getting the kinds of cooperation that we 
need to go after the terrorists of interest, and, once again, 
that varies according to countries, and so some are very 
supportive, and others are less supportive, I would say.
    Ms. Shea-Porter. Okay. I know that surveys show that 
Europeans try not to buy American products. I think that is 
reflective of something going on there that worries me about 
our ability to get the information if we are not seen in the 
same regard.
    Thank you.
    The Chairman. Ms. Castor.
    Then we can go back at Dr. Gingrey for a second round.
    Ms. Castor.
    Ms. Castor. And thank you, gentlemen, for your testimony 
and report here today. Your global security assessment paints a 
very serious and stark picture in the Middle East and Iraq.
    You state that ``Iraq is at a precarious juncture and 
communal violence and scant common ground between Shias, Sunnis 
and Kurds continues to polarize politics, it seems that, given 
the current winner-take-all attitude and sectarian animosities 
infecting the political scene, Iraqi leaders will be hard 
pressed to achieve sustained political reconciliation.''
    Despite the fact that the American people have now spent 
over $450 billion and suffered great loss of life by very 
courageous men and women in service, you state that the current 
security and political trends in Iraq are moving in a negative 
direction.
    I would also like to focus on the regional concerns in 
particularly the nations that have been our friends and have 
had some strategic interests in common over the years.
    You state here in your report in the assessment, ``Friends 
of the United States in the region are concerned about the 
consequences of growing instability in Iraq. Many are 
increasingly apprehensive about Iraqi ethnosectarian strife 
agitating their population, and all of our allies in the region 
are nervous about the growing role of radical Islamists, the 
spreading of Iranian influence and refugee flow.''
    Would each of you go around the region maybe country by 
country? As we begin to consider more of a redeployment 
strategy, where can we look and where can we bring pressure to 
bear country by country? What are their strengths when it comes 
to their military capability, their ability to step into some 
of the training roles, intelligence gathering, resources that 
they can bring?
    If you could give us a snapshot of folks in the region that 
have those same security interests, that would be very helpful 
and enlightening.
    Would you start on the military?
    Dr. Fingar. Start on the military?
    Mr. Cardillo. Sure. I will start on the military roles.
    Well, first of all, you are exactly right, I mean, in that 
our assessment is that if we get too focused on a particular 
governance issue and problem, we will miss the opportunity that 
the region does offer. I think that we have already found to 
date good contributions from allies to enable support, whether 
it is the training roles that we have had assistance in, and it 
is our assessment that what we need to do is we need to 
leverage that mutual concern for stability so that it is not 
those allies looking at us to make the decisions and implement 
all the actions.
    But as much in life, it is finding that balance between 
turning their good intentions into actions versus, in some 
cases, them actually benefiting from our lack of success, if 
you will. So what we have to do is we have to turn that 
equation around and find ways to leverage their interest in the 
stability. As Dr. Fingar mentioned, none of the governments in 
the region are interested in a fractured state, so how can we 
invest those strengths that they have on the military side to 
be part of the solution.
    Dr. Fingar. I would agree with what Robert has said, that 
highly desirable to look for ways to cooperate with the region 
in areas of mutual interest. Among the hurdles that one has to 
get over to do that are Arab states, the Sunni Arab states. 
Look at Iraq. They look at the Iraqi government. They look at 
the Shia demographics. The Shia dominate the government because 
they won an election and they are the largest chunk of the 
population.
    I think many look and they see the Shia in Iraq as a cat's 
paw or an extension of Iran, so there is a sort of a do you 
help your principle adversary while Iran is feeling full of 
itself and sort of getting over that.
    But the concern is about Sunni-Shia tensions that are high, 
perhaps higher than they have been in a very long time, and 
willingness to run some domestic risks by engaging what for our 
perspective would be an international geopolitical 
stabilization effort that has an element of taking sides in a 
religious conflict.
    Are there capabilities in the region, in Egypt, in Jordan, 
in Saudi Arabia? Yes. How easily can they be tapped? That is a 
much more difficult and, well, problematic question.
    John.
    Mr. Kringen. I would agree. They are, in many cases, fairly 
direct in laying out their concerns about the Shia-led 
government in Iraq and clearly have difficulties fully 
supporting a government of that nature, and so you would say at 
this point they have not done as much as we would have liked, I 
think, them to do, and as Tom laid out, that is a big hurdle 
for what we can expect them to do in any kind of future 
scenario.
    Ms. Castor. Thank you.
    The Chairman. I thank the gentlewoman.
    Mr. Taylor, the gentleman from Mississippi.
    Mr. Taylor. Thank you, gentlemen, for your service and for 
sticking around so long.
    My last memory of Kuwait around Easter time is flying out 
just after dark, and I am seeing a convoy of approximately 300 
vehicles forming up, headed toward Iraq, and it really is one 
of those moments where you scratch your head and say, ``How is 
it that they are safe here, but the moment they cross the 
berm''--so my question to you, the experts on that, is what 
have the Kuwaitis done in order to, you know, stymie violence 
in their country and do you see that as sustainable. Or am I 
wrong? Is there violence going on that I am not aware of?
    Dr. Fingar. Kuwait does not have a high level of internal 
violence, that the government has tease words like 
``liberalized'' and ``democratized'' and so forth probably 
overstate the situation, have been increasingly responsive to 
the national needs.
    This is a population that knows they suffered horrendously 
during the period of the Iraqi occupation, and there is a 
recovery, there is a ``we can put aside a lot of differences 
because we do not want to go through that again'' operating, I 
believe, in that country, and they do seem to be pretty well 
able to resist efforts at outside meddling.
    John or Bob.
    Mr. Cardillo. I would agree.
    Dr. Fingar. Do you want to add something?
    Mr. Kringen. The only other thing I would add to what has 
already been said regarding Kuwait is that Kuwait has a long 
history of managing Shia unrest, and the majority of the 
population in Kuwait is Shia, and as a result, the Sunni 
problem is sort of a relatively new one, and the Kuwaitis have 
had a long history of sort of looking, being able to identify 
in a very, very small country where trouble spots may be and 
using that experience in the past of managing the Shia problem, 
sort of apply it to what is now a lesser problem of Sunni 
extremism.
    Mr. Taylor. If you had to guess what percentage of the, 
jumping to Pakistan, what percentage of the OSI rank and file 
would you say are sympathetic to the Taliban or al Qaeda?
    Mr. Kringen. This has been an issue that we have spent a 
lot of time and energy on. It is clearly a very mixed picture. 
I do not think our intelligence base would allow us to label 
percentages, but we are concerned that some of the folks who 
should be the folks damping down those issues are, indeed, 
sympathetic, but in terms of a number or percentage or anything 
like that, we do not have the data to support that.
    Mr. Taylor. Does that start with President Musharraf, or 
does it start one level below him, two levels below him?
    Mr. Kringen. We are not in a position to kind of lay that 
out. I would say in terms of President Musharraf himself, we do 
not think that is an issue at all, sir.
    Mr. Taylor. I will jump into Afghanistan. How long has 
President Karzai's brother openly been in the drug business?
    Mr. Kringen. I know there are reports of him being in the 
drug business. Those reports have been longstanding. I am not 
in a position here to kind of verify or deny those reports.
    Mr. Taylor. Well, let's just pass it on as how long has the 
average Afghan on the street been aware of this?
    Mr. Kringen. Oh, many----
    Mr. Taylor. It is something you are aware of.
    Mr. Kringen. These allegations have been longstanding for 
multiple years, sir. It is, you know, two or three years, 
easily, I would say, sir.
    Mr. Taylor. Okay. Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Dr. Gingrey.
    Dr. Gingrey. Mr. Chairman, thank you for the opportunity 
for a second round of questions, and I do want to go back to my 
original question.
    Dr. Fingar, you have answered it. Basically, I think I 
heard you say that it does not keep you awake at night, the 
visa waiver program, and the fact that we do not have any 
really good way of tracking people that come to this country as 
tourists or for businesses up to 90 days, and I am concerned 
about that. I would like to hear, Mr. Cardillo and Dr. Kringen, 
also respond to that.
    Mr. Kringen. Let me start off. I would say because I am not 
responsible for the visa waiver program, I also do not spend a 
lot of time on it. What I am concerned about is----
    Dr. Gingrey. But you, Doctor, are the director for 
intelligence of the Central Intelligence Agency.
    Mr. Kringen. No, no. But I am saying I am not involved in 
the implementation or policy decision about the visa waiver 
program policy.
    What I will tell you is we are very concerned about the 
capability of terrorist groups to use Europe as a venue and a 
lunching point for bringing terrorists into the United States.
    We are very concerned about the connection that clearly 
exists between British citizens, in some cases British 
immigrants, in other cases coming out of Pakistan, and so that 
connection between Pakistan, the U.K. and then the potential 
for those individuals to get into the United States is a matter 
of exceedingly high concern to our agency, which is why we work 
very closely with various elements of the British government in 
this particular case to be able to run to ground all reporting 
that bears on any individual, British citizen or otherwise, who 
may have a terrorist connection.
    So we do think there is an issue there that we need to 
monitor very closely, and from an intelligence point of view, 
the way we tackle that is by working closely with our European 
partners.
    Dr. Gingrey. And I am relieved to hear that response.
    Mr. Cardillo.
    Mr. Cardillo. I would share the concern. First to your 
broader point about the globalization issue and access to 
markets and to talent, if you will, skill sets across the 
world, I do hold my analysts accountable to be, A, aware of 
that context within which we are working now and, as Dr. Fingar 
has mentioned in his testimony, there are pluses and minuses to 
that fact, that condition in the background.
    To your specific question, I share Mr. Kringen's concern 
which is to the extent that there are leaks in the system, 
okay, that cause us to lose track, okay, of persons of interest 
or threads of threat, both here and to deployed forces abroad, 
because our defense forces are around the world and you can 
strike at the United States and not do it here in the homeland, 
as has been done in the past. So, for both of those reasons, 
sir, if it in any way inhibits our ability to maintain that 
track, we have a great concern.
    Dr. Fingar. Let me, sir, if I may----
    Dr. Gingrey. Yes, Doctor, sure.
    Dr. Fingar. I clearly failed to convey what I wanted to. 
With the visa waiver program, I worry a lot about being able to 
track. You can interview the people at one end where you can do 
a very good job of accounting for them when they get here and 
absolutely screening. We ought to know where they go and 
follow.
    Whether you pick it up on the front end or you screen 
against the same databases when they arrive at the port of 
entry, we absolutely should be doing that, utilizing the lists 
of who was on an airplane and notification ahead of time that 
there are alternative mechanisms that I believe give us the 
capability to identify who was coming in, identify them at port 
of entry, and that the weak link, in my view, is sort of after 
they arrive.
    Dr. Gingrey. Well, Dr. Fingar, I am glad you clarified, and 
I appreciate that, and just in my concluding seconds, that is 
my concern. A chain is only as strong as its weakest link, and 
that is a tried expression, but, clearly, we have some concerns 
here and we have to be able to identify these people.
    And maybe it sounds draconian to say that, you know, we 
ought to temporarily suspend the program until these countries 
abide by the provisions of the Patriot Act, that they have 
biometric passports so that we can put that through a data 
processing and know exactly who is coming to this country, and 
then, of course, if they are clear, everything is fine, but yet 
stay beyond the 90 days, whether it is for business or tourism, 
we need to be able to find them.
    And I yield back, Mr. Chairman.
    The Chairman. Ms. Shea-Porter, second round.
    Ms. Shea-Porter. Thank you very much.
    I wanted to return to my question, if you gentlemen would 
please. My concern here has to do with our Nation's security 
and our troop safety, and so I wanted to return to the question 
that I asked you before.
    Our policies are not hampering our ability to get 
intelligence from individuals in that region? Is that so? Our 
policies are not hampering our ability to get intelligence from 
individuals living in the region around Iraq and Iran and 
Syria? We have the same level of intelligence that we can get 
from individuals as we did six or seven years ago?
    Mr. Cardillo. I would just say difficult to give a blanket 
answer because, obviously, it is mixed, but I would agree with 
Mr. Kringen's earlier statement that on the whole, our 
relationships, which are mutually beneficial, are, in fact, 
enhanced if you use six years ago as the baseline.
    Dr. Fingar. We are looking for very different kinds of 
information than we were six years ago--I associate myself with 
both John and Robert--and we are getting cooperation, we are 
getting information, that six years ago we were not looking for 
that kind of tracking targeting kind of data on specific 
terrorist-related individuals, movements of terrorist monies 
moving around and so forth, that we are asking different 
questions.
    The granularity of what we need is much greater, and we are 
getting, you know, not everything we want, of course. Might 
more people come forward if they had a more positive view of 
us, that the critical element here is that segment that knows 
something about the bad guys and might be willing to tell us 
about it, and sort of at the margins, presumably it is a 
smaller pool willing to tell the crown jewel kind of 
information.
    Ms. Shea-Porter. But there is no extra challenges getting 
information from individuals who live in the area who because 
of policies or they do not agree with the United States? You do 
not think that is hampering our ability to find out, for 
example, if there is a terrorist attack planned, if they are 
going to be attacking troops in two days or if there is some 
action along the border? That is not impacting is what you are 
basically saying.
    Mr. Kringen. I think you have to distinguish between in the 
region and within Iraq, and I would say within Iraq the 
disposition of individuals to provide intelligence to us varies 
according to whether they think that our presence there is 
going to be a helpful act, and I would cite current 
developments in Anbar as a case where previously a lot of the 
tribal elements were resistant to working with us against al 
Qaeda. Now they are in part because they see that as something 
that is helpful to them.
    So, within that particular complex, you have Sunnis, you 
have Shia, you have Kurds. They all have very different views 
of the U.S. presence, and those very different views within 
Iraq clearly drive their willingness to collaborate with us.
    The Sunnis have the most concern about our role in Iraq. 
The Kurds have the least concern. The Shia are very much in the 
middle and, therefore, present a more mixed picture. So, within 
Iraq, it clearly does shape who we can work with.
    Ms. Shea-Porter. I understand that. Thank you. What I am 
concerned about is that we are not getting the intelligence we 
need.
    And then I also wanted to ask you once more about the 
European nations and our strained diplomatic relationships with 
some of the nations because of the policy. This is not in any 
way interfering with our ability to share information on 
individuals of possible terrorist activities? You are saying 
that you feel that other nations that may disagree with us for 
our Middle East policy are just as forceful about sharing and 
including us in intelligence. So we are not impacted at all?
    Mr. Kringen. No. What I would say--and tried to say before 
but clearly did not articulate it well--was that working with 
us varies according to a lot of variables, the capabilities of 
the particular government in terms of their ability to go after 
terrorists, the legal regimes within which they operate as well 
as kind of their attitudes toward the United States.
    All of those shape how we are able to get information or 
not get information from those countries, and so it is 
certainly not uniform across all those countries by any stretch 
of the imagination.
    Ms. Shea-Porter. So it is not a yes or a no answer?
    Mr. Kringen. Because it is highly variable based on a 
number of different criteria of which, you know, government 
attitudes----
    Ms. Shea-Porter. So that attitude toward us could impact 
the amount of intelligence that we receive?
    Mr. Kringen. Absolutely.
    Ms. Shea-Porter. Okay. That is what I needed to hear. Thank 
you.
    Mr. Kringen. Okay. Thank you.
    The Chairman. Mr. Sestak, do you have questions?
    Mr. Sestak. Yes, sir. Two questions.
    But, Dr. Fingar, I was struck by I think what you said, 
that the army of Iraq is rift with sectarian militias. I think 
it speaks to the issue of whether some talk about their 
training is adequate. I have kind of always disagreed with it. 
I always thought it was their motivation and allegiance. To 
some degree, reports are that half of them never show up for 
work.
    When I was in Iraq with Senator Hagel from Nebraska, I was 
struck by the report of a message recently that Ambassador 
Crocker sent forward that alleged that he was not struck by the 
A-team quality he would expect where our troops are engaged in 
a war.
    When I was there--I think your head there was actually an 
acting head--I was struck by the youth that was there, but 
youth can do a lot. But I was also struck that I was not able 
to get an answer to who is loyal to whom in these units and who 
will be where. And I bring that up because that is background. 
People talk about post-surge training.
    Does your intelligence give us any confidence that if we 
are to leave troops behind--50,000, 20,000--that you would feel 
comfortable that you can embed them for training in an Iraqi 
unit whose loyalty is not suspect and whose motivation to fight 
well to protect our trainers is there?
    Dr. Fingar. That is basically a question that should be 
directed to the military on the intelligence side of this.
    John, do you want to answer that?
    Mr. Landry. When you take a look at the performance of 
embedded troops at this point and the casualties they have 
taken, frankly, I think what we from an intelligence 
perspective see is a manageable risk.
    Mr. Sestak. I am talking post-surge, that the----
    Mr. Landry. Now it is hard to say. That is going to depend 
upon, for example, is there a plus-up in embedded soldiers, 
number one. Number two, there have been plans in the past to 
put in position that security detachments precisely provide the 
kind of security you are talking about.
    Mr. Sestak. I am talking training of the Iraqi troops, 
though, sir, not the security detachments.
    Mr. Landry. The security detachments we are talking about 
are those that would, in fact, protect the embedded soldiers.
    Mr. Sestak. So we would need our U.S. security combat 
forces to protect our embedded trainers.
    Mr. Landry. Yes, but, you know, for lots of reasons, both 
to protect them against insurgent terrorist activities----
    Mr. Sestak. Understand. So, in a sense, we should not look 
at this training mission post-surge and talk about just 
embedding some trainers and taking out our combat forces. Your 
intelligence indicates we need U.S. combat forces to remain to 
protect the embedded trainers.
    Mr. Landry. I am saying there will always be a requirement 
for what we call force protection, and that force protection 
mission will either be performed by the trainers themselves in 
areas and in units where that is, you know, feasible, but where 
it is not, you are probably going to have to provide some 
additional form and we now----
    Mr. Sestak. Can you define which units are more loyal than 
others at this time?
    Mr. Landry. We have reports that would give us some 
indications of units that have performed better in that regard 
than others.
    Mr. Sestak. All right.
    Mr. Landry. As I said earlier, the fact of the matter is 
that this is not a phenomenon that goes across all units.
    Mr. Sestak. So it is still to some degree an art, not a 
skill?
    Mr. Landry. Absolutely.
    Mr. Sestak. The second question: You said, which I thought 
was an important statement, that the number one threat to 
America's homeland is al Qaeda. Where do you believe the center 
of strategic risk or center of strategic gravity for U.S. 
security interests lie? This is a global assessment.
    Mr. Landry. I think my answer to that would be the Middle 
East, the Middle East writ large, that for the energy 
dimension, for the proliferation dimension, the danger or the 
potentially seriously destabilizing impact of an Iranian 
nuclear weapon in that portion of the----
    Mr. Sestak. I am out of time. Could I just ask have 30 
seconds, sir?
    I am sure you are right, but can you also, as you answer, 
comment upon other types, not just military, but the financial, 
the economic security, the policy security of Middle East 
versus Western Pacific, China? You did a very good job, I 
thought, earlier describing some sides of China that people do 
not normally think about, but those two areas, do you still 
rate the Middle East as the center of strategic for the decades 
to come?
    Dr. Fingar. I do, although the danger of tension in 
Northeast Asia, we have nuclear powers up against one another, 
where you have a little bit of a wildcard regime at Pyongyang, 
we have the unresolved issues of the Cold War across the Taiwan 
Straits and the Demilitarized Zone, where the amount of 
armament, the lethality of the weapons that are involved, the 
deep historic suspicions and animosities increase the danger of 
miscalculation.
    Mr. Sestak. Thank you.
    The Chairman. Gentlemen, thank you.
    Let me finish by a comment. Your testimony today, other 
than an earlier reference, Dr. Fingar, seemed to omit Latin 
America entirely, I suppose, as a result thereof it does not 
rise to the level of the other parts of the world. Is that 
correct?
    Dr. Fingar. Well, the written statement for the record 
includes Latin America. I mentioned Venezuela, and I 
mentioned----
    The Chairman. Yes, you did. You did that, but you did not 
mention the other areas.
    Dr. Fingar. That is correct. I did not do so in terms of 
trying to hit the greatest threats to the United States. 
Happily, most of South America is not in the category of grave 
threat to the United States.
    The Chairman. Would you expand on one other topic? You did 
mention the Persian-Arab differences, Iraq really being Persia, 
and the Arab countries are the rest of what we call the Middle 
East. How deep is that division? I know it should be historic, 
but how deep is that division, and how can we best take 
advantage of it?
    Dr. Fingar. The short answer is a very longstanding and 
deep----
    The Chairman. Excuse me. I think I said Iraq. I meant Iran.
    Dr. Fingar. Yes, you meant Iran.
    The Chairman. Yes.
    Dr. Fingar. I realized that, Mr. Chairman.
    That the division is very longstanding and very deep, that 
rather than thinking about how we can take advantage of it, I 
think we need to think harder about how to deal with it as a 
fact of life in the region, that attempting to sort of exploit 
it seems to me to be fraught with an enormous number of 
problems.
    Conversely, failure to grapple with it is a part of the 
solution, and it was suggested by many members' questions about 
bringing those states in the region into any type of a solution 
for Iraq, a longstanding security or stability framework. We 
simply have to recognize that there is a division there that, 
much as we sort of Americans say, ``Can't you get over those 
differences?'' the people in the region are not there yet.
    You might want to add something?
    The Chairman. Well, gentlemen, thank you for your excellent 
testimony, and I know we have kept you a bit longer than you 
had anticipated, but we did have the vote in between. It is 
certainly good of you to do this.
    And with that, we will adjourn the hearing. Thank you.
    Dr. Fingar. Thank you, Mr. Chairman.
    [Whereupon, at 1:13 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             July 11, 2007

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 11, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T8836.001
    
    [GRAPHIC] [TIFF OMITTED] T8836.002
    
    [GRAPHIC] [TIFF OMITTED] T8836.003
    
    [GRAPHIC] [TIFF OMITTED] T8836.004
    
    [GRAPHIC] [TIFF OMITTED] T8836.005
    
    [GRAPHIC] [TIFF OMITTED] T8836.006
    
    [GRAPHIC] [TIFF OMITTED] T8836.007
    
    [GRAPHIC] [TIFF OMITTED] T8836.008
    
    [GRAPHIC] [TIFF OMITTED] T8836.009
    
    [GRAPHIC] [TIFF OMITTED] T8836.010
    
    [GRAPHIC] [TIFF OMITTED] T8836.011
    
    [GRAPHIC] [TIFF OMITTED] T8836.012
    
    [GRAPHIC] [TIFF OMITTED] T8836.013
    
    [GRAPHIC] [TIFF OMITTED] T8836.014
    
    [GRAPHIC] [TIFF OMITTED] T8836.015
    
    [GRAPHIC] [TIFF OMITTED] T8836.016
    
    [GRAPHIC] [TIFF OMITTED] T8836.017
    
    [GRAPHIC] [TIFF OMITTED] T8836.018
    
    [GRAPHIC] [TIFF OMITTED] T8836.019
    
    [GRAPHIC] [TIFF OMITTED] T8836.020
    
    [GRAPHIC] [TIFF OMITTED] T8836.021
    
    [GRAPHIC] [TIFF OMITTED] T8836.022
    
    [GRAPHIC] [TIFF OMITTED] T8836.023
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             July 11, 2007

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. SMITH

    Mr. Smith. During the July 11th hearing, I expressed concern about 
barriers to the effective and timely processing of intelligence data, 
both classified and open source. I have heard from intelligence 
community experts that the most critical shortcoming in our 
intelligence system is the failure to process and synthesize massive 
amounts of available data. Some argue that the gaps can be bridged 
through more effectively leveraging existing data processing 
technologies.

        1)   Do you agree that this information processing gap is a 
        major barrier to effective intelligence analysis? If so, how 
        would you describe the nature and causes of the problem? For 
        example, is the problem one of a lack of sufficiently advanced 
        data-processing technologies, insufficient budget allocation 
        toward information-processing activities, or perhaps 
        institutional reluctance to prioritize information-processing 
        activities versus other intelligence activities?

        2)   What specifically has your agency or office done to 
        identify and rectify these shortcomings?

        3)   Can you identify any ways in which Congress or the 
        Administration can help address these shortcomings?

    Mr. Kringen. Processing and synthesizing massive amount of data is 
indeed a significant challenge in the Intelligence Community. The 
volume of available information--both classified and unclassified--
continues to grow dramatically. Over the past seven years, for example, 
the number of worldwide Internet users has more than doubled, and the 
number of Internet host computers has grown by nearly a factor of ten. 
The main database that informs our analytic judgments at the CIA has 
increased almost 100 percent over the past decade.
    To cope with these increasing volumes of information, we need 
improvements not only in our information technology (IT) systems, but 
also increases in the numbers and expertise of our analytic cadre. 
Thanks to the support of the Congress over the past three years, the 
CIA has made significant improvements in both areas, upgrading our IT 
systems in support of analysis and increasing the number of analysts by 
almost 30 percent since the end of 2004.
    In recent years CIA has deployed many IT improvements that allow 
analysts to better cope with the growth of information, including:

        <bullet>   Trident--a web-based analytic tool environment that 
        offers significant efficiencies in searching, filing, and 
        sharing insights with colleagues on the expanding pool of 
        relevant information.

        <bullet>   Neptune--a common data repository that allows a 
        broader array of analytic tools to be used to analyze and 
        interpret the available data.

        <bullet>   Quantum Leap--a system for discovering relationships 
        and knowledge in massive, disparate data using innovative data 
        aggregation and tools.

        <bullet>   Visual Information Initiative (VII)--a data system 
        that provides users the ability to access near real-time 
        classified imagery as well as a large historical archive of 
        non-textual data.

        <bullet>   Castanet--a federated search solution that enables 
        analysts to conduct single Boolean searches of multiple systems 
        and data sets from across the Intelligence Community.

        <bullet>   Entity extraction and link analysis--capabilities 
        that are key to using analytic tools on unstructured, textual 
        reporting and identifying key relationships among people, 
        places, and things described in the text.

        <bullet>   eViTAP--a suite of tools that captures foreign video 
        in near-real time, simultaneously creates a transcript in the 
        source language, and instantly renders the transcript into 
        English through machine translation.

        <bullet>   Analysts' access to the Internet at their desktop, 
        along with the ability to easily send Internet data to CIA's 
        network where it can be analyzed using sophisticated tools.

        <bullet>   Data visualization technologies, like InSPIRE, that 
        allow analysts to discover trends and anomalies in large 
        document collections.

    Collectively, these IT improvements provide us significantly more 
capability to keep pace with the increased volumes of information than 
we had just a few years ago. They have been developed in close 
cooperation with experts from private industry, the Intelligence 
Community, national laboratories, and CIA's venture capital arm, In-Q-
Tel.
    Of course, information growth continues, and we must continue to 
make investments in new capabilities to keep pace. Guided by engagement 
with our analysts to identify their most pressing needs, we have asked 
for additional funds in FY09 and beyond to deploy a range of emerging 
technologies and tools that will help keep us in front of the ever-
growing flow of information. Our current search tools are optimized for 
finding what we already know, not for finding what we don't know. The 
new technologies we have requested focus on helping analysts find 
relationships that they cannot uncover with existing search tools:

        <bullet>   Tools optimized for research and discovery against 
        structured data that is increasingly becoming available.

        <bullet>   Concept searching of text, allowing analysts to find 
        documents that a traditional text search would miss.

        <bullet>   Guided navigation through text documents, giving 
        analysts a more effective alternative to traditional Boolean 
        text search.

        <bullet>   Entity relationship discovery via latent semantic 
        indexing, allowing analysts to uncover subtle relationships 
        among people, organizations, or locations.

        <bullet>   Entity visualization, letting analysts browse large 
        document collections by finding related documents and 
        discovering new links and relationships.

        <bullet>   Link and entity editing, giving analysts the power 
        to enrich automatically extracted data with their own analytic 
        insights and judgments.

        <bullet>   Visual browsing of large document collections to 
        help analysts home in on the most important documents.

        <bullet>   Geographic query, to find documents and data by 
        their location.

        <bullet>   Using both implicit and explicit analyst feedback on 
        intelligence reports including tagging and commenting, usage 
        statistics, and subjective ratings of value--to guide analysts 
        to the documents most valued by their peers.

    Support by both the Administration and the Congress for the funding 
of these technologies is essential for us to keep pace and reduce the 
risk that critical information will be lost or inadvertently ignored.
    Mr. Smith. During the July 11th hearing, I expressed concern about 
barriers to the effective and timely processing of intelligence data, 
both classified and open source. I have heard from intelligence 
community experts that the most critical shortcoming in our 
intelligence system is the failure to process and synthesize massive 
amounts of available data. Some argue that the gaps can be bridged 
through more effectively leveraging existing data-processing 
technologies. a) Do you agree that this information processing gap is a 
major barrier to effective intelligence analysis? If so, how would you 
describe the nature and causes of the problem? For example, is the 
problem one of a lack of sufficiently advanced data-processing 
technologies, insufficient budget allocation toward information-
processing activities, or perhaps institutional reluctance to 
prioritize information-processing activities versus other intelligence 
activities? b) What specifically has your agency or office done to 
identify and rectify these shortcomings? c) Can you identify any ways 
in which Congress or the Administration can help address these 
shortcomings?
    Mr. Cardillo. a) The amount of data now available to analysts is a 
direct result of Intelligence Community (IC) efforts to make data 
stores available across the IC, Through these successful efforts, the 
IC has progressed to the point that it is unable to process it all, and 
DIA agrees with the arguments that the IC can bridge the gaps by 
leveraging existing technologies. It must be noted, however, that 
failure to process and synthesize massive amounts of data is but one of 
many issues negatively impacting the IC's ability to effectively 
process and disseminate intelligence.
    b) Ongoing funded activities at DIA are striving to bring together 
multiple data sources under a single architecture. As the amount of 
data already is massive and continues to grow, analysts must be able to 
discover what is relevant to them at any given time. This service-
oriented architecture is streamlining the way in which analysts will be 
able to discover and access the intelligence they need. It enables 
services and data feeds to other agency applications, thereby improving 
data integration and DIA's collaboration efforts. DIA Also has made 
significant progress in applying commercial technologies to managing 
finished intelligence products from across the Defense Intelligence 
Enterprise, providing improved access and search capabilities.
    c) DIA is coordinating all these issues with the Director of 
National Intelligence (DNI) staff as DIA takes on the role of Executive 
Agent for the DNI's Analytic Space or A-Space initiative. DIA believes 
relevant policies will be reviewed and updated to remove identified 
shortcomings.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOEBSACK

    Mr. Loebsack. In your testimony, you state that, despite initial 
steps being taken in the North Korean denuclearization process, North 
Korea's ``threat to international security remains grave.''
    A)  In your opinion, is the successful completion of at least the 
initial steps in the denuclearization process cause for optimism that 
North Korea may be stepping back from the brink and may one day become 
a responsible regional actor?
    B)  Do you believe that the success of the Sin Party Talks in 
bringing North Korea to the table and beginning to curb their nuclear 
program might lay the groundwork for success in curbing North Korea's 
ballistic missile program and continued proliferation of these missiles 
abroad?
    Mr. Kringer. North Korea's shutting down of the Yongbyon reactor 
and its allowing IAEA inspectors access to the Yongbyon facilities are 
positive moves, but completion of these initial steps under the 
February agreement does not provide sufficient evidence on whether 
North Korea is ``stopping back from the brink'' or will become a 
responsible regional actor. Additional actions under the February 
agreement would reveal more about Kim Jong II's ultimate intentions.
    North Korea has historically dealt with missile proliferation 
separately from negotiations over its nuclear program, but it is 
possible that success in the nuclear area could build trust for 
progress on missiles. Much depends on getting Pyongyang to accept that 
being a part of the international community requires adherence to 
international norms across the board.

                                  <all>

</pre></body></html>
